App. 1
NOT FOR PUBLICATION
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
SHEILA GARCIA; CASSANDRA
GARCIA; C.N.G., a minor,
by and through their Guardian
Ad Litem, Donald Walker;
C.J.G., a minor, by and
through their Guardian
Ad Litem, Donald Walker,

No. 19-55022
D.C. No. 3:15-cv00189-JLS-NLS
MEMORANDUM*
(Filed Oct. 26, 2020)

Plaintiffs-Appellees,
v.
CAITLIN MCCANN; GLORIA
ESCAMILLA-HUIDOR;
JESUS SALCIDO,
Defendants-Appellants,
and
COUNTY OF SAN DIEGO;
SAN DIEGO HEALTH AND
HUMAN SERVICES AGENCY;
POLINSKY CHILDRENS
CENTER; SRISUDA WALSH;
MARTHA PALAFOX; LAURA
QUINTANILLA; DOES,
1 through 10 Inclusive,
Defendants.
* This disposition is not appropriate for publication and is
not precedent except as provided by Ninth Circuit Rule 36-3.

App. 2
Appeal from the United States District Court
for the Southern District of California
Janis L. Sammartino, District Judge, Presiding
Submitted April 16, 2020**
Pasadena, California
Before: SCHROEDER and COLLINS, Circuit Judges,
and BAYLSON,*** District Judge.
Partial Concurrence and Partial Dissent by Judge
COLLINS
Defendants-Appellants Caitlin McCann, Gloria
Escamilla-Huidor, and Jesus Salcido, San Deigo
County social workers, appeal the district court’s denial of qualiﬁed immunity in this 42 U.S.C. § 1983 action. Plaintiffs include Cassandra Garcia, her two
sisters, and their mother. They contend the children’s
warrantless removal from their parents’ home, Cassandra’s placement in an emergency shelter rather
than the psychiatric inpatient program chosen by her
parents, and Cassandra’s subsequent treatment in
the emergency shelter, violated plaintiffs’ Fourth and
Fourteenth Amendment rights.
1. It has been well-settled law in this circuit for two
decades that authorities may not remove a child from
the parents’ custody without judicial authorization,
unless there is reasonable cause to believe the child is
** The panel unanimously concludes this case is suitable for
decision without oral argument. See Fed. R. App. P. 34(a)(2).
*** The Honorable Michael M. Baylson, United States District Judge for the Eastern District of Pennsylvania, sitting by
designation.

App. 3
in imminent danger of bodily injury or serious harm.
See Demaree v. Pederson, 887 F.3d 870, 883 (9th Cir.
2018) (“It is ‘beyond debate,’ . . . that existing Ninth
Circuit precedent establishes that children can only
be taken from home without a warrant to protect them
from imminent physical injury or molestation in the
period before a warrant could be obtained”) (citing and
discussing Mabe v. San Bernardino County, 237 F.3d
1101, 1108–09 (9th Cir. 2001) and Wallis v. Spencer,
202 F.3d 1126, 1138 (9th Cir. 2000)). Exigency is a “very
limited exception” to the warrant requirement. Wallis,
202 F.3d at 1140. Defendants are entitled to qualiﬁed
immunity on issue (1) only if the allegations of abuse
are exigent as a matter of law.
Because the record is unclear on whether leaving
the children in the home would have put them at risk
of “imminent danger of future harm,” the district court
properly denied qualiﬁed immunity on this claim.
Mabe, 237 F.3d at 1108. Several facts, viewed in the
light most favorable to Plaintiffs, undermine the reasonableness of a belief of exigency. First, the only reported incident of abuse in the home concerned
Cassandra, not her sisters. Cf. id. (noting that the evidence of exigency was “more compelling” where the
victim who reported the abuse was still in danger of
harm). Second, Cassandra reported that the incident
occurred more than one month before the sisters’ removal from the home, and there is no evidence that the
abuse was recurring. See id. (holding that exigency was
undermined by the fact that the inappropriate touching had stopped in the month after the initial police

App. 4
report was made). As Defendants note, other facts may
support a ﬁnding of exigency, including that it would
have taken 24 to 72 hours to procure a warrant and
that Defendants acted promptly after conducting their
initial inquiry. As in Mabe, these factual disputes prevent the conclusion that, as a matter of law, imminent
serious injury justiﬁed the warrantless removal of the
sisters from their home. It is up to a jury to determine
whether Defendants had “reasonable cause to believe
exigent circumstances existed.” Mabe, 237 F.3d at
1108.
Defendants invoke on appeal only the Supreme
Court’s warning, given in the context of excessive force
cases, that we not deﬁne the law at too high a level of
generality. See Kisela v. Hughes, 138 S.Ct. 1148, 1152
(2018). In this case however we deal with a speciﬁc line
of cases that provides “clear notice of the law to social
workers responsible for protecting children from sexual abuse and families from unnecessary intrusion.”
Demaree, 887 F.3d at 884 (citing and discussing Mabe
and Rogers v. Cnty. of San Joaquin, 487 F.3d 1288 (9th
Cir. 2007)). Further, “[w]hile the Supreme Court has
repeatedly admonished this court not to deﬁne clearly
established law at a high level of generality, we need
not identify a prior identical action to conclude that the
right is clearly established.” Ioane v. Hodges, 939 F.3d
945, 956 (9th Cir. 2018) (internal citation omitted). Although there is no case with this precise set of facts,
it has been well established since at least 2000 that
social workers “may remove a child from the custody of
its parent without prior judicial authorization only if

App. 5
the information they possess at the time of the seizure
is such as provides reasonable cause to believe that the
child is in imminent danger of serious bodily injury
and that the scope of the intrusion is reasonably necessary to avert that speciﬁc injury.” Wallis, 202 F.3d at
1138. Defendants McCann and Escamillao-Huidor are
not entitled to qualiﬁed immunity on plaintiffs’ claim
that the sisters should not have been removed without
a warrant on the basis of a single assault that had been
reported several days earlier, and had occurred months
before the removal.
2. Plaintiffs’ second set of allegations with respect to
Cassandra are that Defendants placed her in a facility
that was contrary to her mother’s wishes and where
she was mistreated. Plaintiffs claim this violated her
mother’s rights to make critical medical decisions for
her child. We have recognized the violation of such a
due process guarantee in a situation where ofﬁcials
failed to obtain the parents’ consent to an invasive
medical examination. Wallis, 202 F.3d at 1141. Yet we
have never recognized a due process claim in a situation like the one here, where the children’s mother asserts that her due process rights were violated because
a child that had been removed from her care was
placed in a facility other than one of her choosing.
Plaintiffs have thus failed to identify a “case where an
ofﬁcer acting under similar circumstances . . . was held
to have violated” the Fourteenth Amendment. S.B. v.
Cnty. of San Diego, 864 F.3d 1010, 1015–16 (9th Cir.
2017) (citation omitted). We are thus not dealing with
a clearly established rule that would have put the

App. 6
social workers on notice that their conduct violated the
law. Defendants are entitled to qualiﬁed immunity on
this claim.
3. Plaintiffs further assert that Defendant Salcido’s
alleged failure to respond to Cassandra’s repeated
threats of suicide, after Salcido placed her in the
Polinsky Children’s Center, rose to the level of deliberate indifference to the child’s medical needs. In this
circuit, we have held that “once the state assumes
wardship of a child, the state owes the child . . . reasonable safety and minimally adequate care and treatment appropriate to the age and circumstances of the
child.” Tamas v. Dep’t of Soc. & Health Servs., 630 F.3d
833, 846 (9th Cir. 2010) (citation omitted). We have
speciﬁcally recognized due process violations when instructions of the child’s treating physician went unheeded, and the resulting failure of the child to receive
adequate care directly harmed the child. Henry A. v.
Wilden, 678 F.3d 991, 1001 (9th Cir. 2012). Yet neither
of the cases relied upon by plaintiffs involved a social
worker acting under similar circumstances as Defendant Salcido. Plaintiffs’ allegations do not involve ignoring a treating physician’s advice, nor do they involve
Salcido’s placement of a child with a dangerous foster
parent. Defendant Salcido is thus entitled to qualiﬁed
immunity on this claim.
4. The district court properly held there were disputed issues of material facts precluding the grant of
qualiﬁed immunity on Plaintiffs’ claim that the warrantless removal of the children from their parents’
custody was unlawful. On Plaintiffs’ other two claims,

App. 7
however, qualiﬁed immunity should have been granted
to the county ofﬁcials.
AFFIRMED IN PART, REVERSED IN PART,
REMANDED.
Each party to bear its own costs.

Garcia, et al. v. McCann, et al., No. 19-55022
COLLINS, Circuit Judge, concurring in part and dissenting in part:
I concur in sections 2 and 3 of the majority’s memorandum disposition, in which the court (1) partially
reverses the district court’s denial of qualiﬁed immunity to Defendants-Appellants Caitlin McCann and
Gloria Escamilla-Huidor, and (2) reverses the district
court’s denial of qualified immunity to DefendantAppellant Jesus Salcido. But I would also reverse the
denial of qualiﬁed immunity on the sole remaining
claim against Defendants McCann and EscamillaHuidor, which concerns the warrantless removal of the
Garcia children. As to that issue, I therefore respectfully dissent.
1. The majority commits a threshold legal error
by erroneously collapsing the two separate prongs of
the qualiﬁed-immunity inquiry. “Qualiﬁed immunity
shields federal and state ofﬁcials from money damages
unless a plaintiff pleads facts showing (1) that the
ofﬁcial violated a statutory or constitutional right, and
(2) that the right was ‘clearly established’ at the time

App. 8
of the challenged conduct.” Ashcroft v. al-Kidd, 563
U.S. 731, 735 (2011). These are separate prongs, and
although the court has “discretion to decide which of
the two prongs of qualiﬁed-immunity analysis to
tackle ﬁrst,” id., it is legally erroneous to merge the two
questions. See Estate of Ford v. Ramirez-Palmer, 301
F.3d 1043, 1048–50 (9th Cir. 2002). The majority, however, does just that, by framing the ultimate qualiﬁed
immunity issue (prong two) entirely in terms of the underlying merits of the constitutional claim (prong one).
Speciﬁcally, according to the majority, “Defendants
are entitled to qualiﬁed immunity” on the warrantlessremoval claim “only if the allegations of abuse are exigent as a matter of law.” See Mem. Dispo. at 3. That,
however, is the standard for evaluating the merits of
the underlying constitutional claim at the summaryjudgment stage—i.e., it is the prong-one inquiry. As the
majority itself later frames the underlying substantive
rule that governs the merits, “social workers ‘may remove a child from the custody of its parent without
prior judicial authorization only if the information
they possess at the time of the seizure is such as provides reasonable cause to believe that the child is in
imminent danger of serious bodily injury and that the
scope of the intrusion is reasonably necessary to avert
that speciﬁc injury.” Id. at 5 (quoting Wallis v. Spencer,
202 F.3d 1126, 1138 (9th Cir. 2000)). But to defeat
qualified immunity, a plaintiff must make the further
showing required by prong two, which is that, at the
time the defendant acted, “every reasonable ofﬁcial
would understand that what [the defendant] is doing

App. 9
is unlawful.” District of Columbia v. Wesby, 138 S. Ct.
577, 589 (2018) (simpliﬁed). Thus, the relevant question here at prong two is whether, in light of thenexisting precedent, every reasonable ofﬁcial would
have recognized that the information Defendants possessed did not “provide[ ] reasonable cause to believe
that the child[ren] [were] in imminent danger of serious bodily injury.” Wallis, 202 F.3d at 1138. The majority fails to pose, much less answer, that question.
Instead, it purports to deny qualified immunity on
the prong-one ground that “the record is unclear on
whether leaving the children in the home would have
put them at risk of ‘imminent danger of future harm.’ ”
See Mem. Dispo. at 3. I agree with that statement as
far as it goes, and for that reason I would not grant
summary judgment based on prong one. But by erroneously framing the qualiﬁed immunity issue in such
terms, the majority effectively omits the crucial second
step of the analysis.
2. The majority compounds its error by later
stating that the applicable law has been clearly established, so as to defeat qualiﬁed immunity, simply because we articulated the above-quoted Wallis standard
in 2000. See Mem. Dispo. at 5. In doing so, the majority
violates the clear instruction of the Supreme Court,
which “has repeatedly told courts—and the Ninth Circuit in particular—not to define clearly established
law at a high level of generality.” Kisela v. Hughes,
138 S. Ct. 1148, 1152 (2018) (simpliﬁed). The mere articulation of the very generally worded standard in
Wallis is not sufﬁcient, without more, to show that

App. 10
Defendants violated clearly established law. Rather, as
explained, the plaintiff must make a more case-speciﬁc
showing that “ ‘the right’s contours were sufﬁciently
deﬁnite that any reasonable ofﬁcial in the defendant’s
shoes would have understood that he was violating it.’ ”
Id. at 1153 (emphasis added) (citation omitted). In this
sense, the majority’s over-generalizing of the clearly
established law is comparable to its erroneous collapsing of the two separate prongs of the qualiﬁed-immunity inquiry: in both instances, the majority elides the
critical element that the plaintiff must show that, under then-existing precedent, every reasonable social
worker would have realized that Defendants did not
have reasonable cause to believe that the Garcia children were in imminent danger.
The majority suggests that the Supreme Court’s
admonition against deﬁning clearly established law at
a high level of generality is limited to excessive-force
cases, see Mem. Dispo. at 4, but that is wrong. In fact,
that same admonition has been given by the Court in
a variety of cases under 42 U.S.C. § 1983 (and even under 42 U.S.C. § 1985). See, e.g., Wesby, 138 S. Ct. at 590
(false arrest); Ziglar v. Abbasi, 137 S. Ct. 1843, 1866–
67 (2017) (conspiracy under § 1985); City & Cnty. of
San Francisco v. Sheehan, 575 U.S. 600, 613 (2015)
(warrantless entry); Reichle v. Howards, 566 U.S. 658,
665 & n.5 (2012) (First Amendment retaliatory arrest);
Wilson v. Layne, 526 U.S. 603, 615 (1999) (scope of
search); Anderson v. Creighton, 483 U.S. 635, 639 (1987)
(warrantless search). More importantly, this court has

App. 11
already applied this principle to the warrantless removal of children, the very issue before us:
In July 2008 it was well-settled that a child
could not be removed without prior judicial
authorization absent evidence that the child
was in imminent danger of serious bodily injury. But the Supreme Court has repeatedly
told courts—and the Ninth Circuit in particular—not to deﬁne clearly established law at a
high level of generality.
Kirkpatrick v. County of Washoe, 843 F.3d 784, 792 (9th
Cir. 2016) (simpliﬁed). Under Kirkpatrick, the inquiry
must be framed as follows: Defendants are entitled to
qualiﬁed immunity unless in 2013 (when Defendants
acted) it was “beyond debate that the confluence of
factors” in this case “would not support a ﬁnding of exigency.” Id. at 793. The majority commits legal error in
framing the qualiﬁed-immunity question at a higher
level of generality than Kirkpatrick allows.
3. Applying the correct qualiﬁed-immunity
standards, I would reverse the denial of qualiﬁed immunity to McCann and Escamilla-Huidor.
View in the light most favorable to Plaintiffs, the
evidence established that Defendants were aware of
the following circumstances at the time that they
acted: that a 16-year-old girl had reported to an initial
social worker that her father had inappropriately fondled her while drunk and that her parents would regularly drink until vomiting, leaving her to care for her
two- and ten-year-old sisters; that the initial social

App. 12
worker reported that the 16-year-old was tearful and
unable to say if the inappropriate touching had happened previously or to her sisters; that the ten-year-old
sister denied that sexual abuse had happened to her
but conﬁrmed that the parents would drink to the
point of vomiting, although “not so much lately”; that,
even though the 16-year-old later claimed that the incident with her father was an isolated accident, the
initial social worker had found the 16-year-old’s emotional earlier account (which professed uncertainty
about other incidents) to be credible; and that a warrant would have taken at least 24 to 72 hours to obtain.
I think that, under then-existing precedent in 2013, it
“was not beyond debate that the conﬂuence of factors
set forth above would not support a ﬁnding of exigency.” Kirkpatrick, 843 F.3d at 793. Put another way,
it cannot be said that every reasonable social worker
would have recognized in 2013 that these facts did not
support a warrantless removal.
None of the precedents cited by the majority shows
that “the state of the law at the time of [the] incident
provided fair warning to the defendant[s] that [their]
conduct was unconstitutional.” Jessop v. City of Fresno,
936 F.3d 937, 940 (9th Cir. 2019) (emphasis added) (citations and internal quotation marks omitted). The
majority relies primarily on Mabe v. San Bernardino
County, 237 F.3d 1101 (9th Cir. 2001), see Mem. Dispo.
at 3–4, but the case is materially distinguishable. Indeed, the majority concedes two very signiﬁcant differences between Mabe and this case. First, “Defendants
acted promptly after conducting their initial inquiry,”

App. 13
see Mem. Dispo. at 4, whereas in Mabe, the social
worker delayed for four days after conducting her investigation and securing evidence corroborating the
referral, thereby casting substantial doubt on the notion that there was an exigency justifying a warrantless removal. 237 F.3d at 1108. Second, the majority
concedes that here “it would have taken 24 to 72 hours
to procure a warrant,” see Mem. Dispo. at 4, whereas
the warrant in Mabe could have been procured within
“a few hours.” 237 F.3d at 1108. The only point of commonality that the majority identiﬁes is its claim that
here, as in Mabe, “there is no evidence that the abuse
was recurring.” See Mem. Dispo. at 3. But the absence
of afﬁrmative evidence of continuing abuse is not sufﬁcient to defeat qualiﬁed immunity. The question is
whether every reasonable social worker would have
concluded that, based on the uncertain and conﬂicting
statements made by the 16-year-old daughter, there
was no “reasonable cause” to believe that there was imminent danger.1 Nothing in Mabe supports the conclusion that the answer to that question is yes.
The majority also cites, but does not analyze,
Rogers v. County of San Joaquin, 487 F.3d 1288 (9th
Cir. 2007), and Wallis, 202 F.3d at 1138. See Mem.
1

I disagree with the majority’s suggestion that, if there was
a risk of sexual abuse, it was limited to the 16-year-old and that
qualiﬁed immunity should still be denied as to the removal of the
other two children. See Mem. Dispo. at 3. It cannot be said that,
under the then-existing precedent, every reasonable social worker
would have recognized and agreed that, where there has been
sexual abuse of one child, the other children can conﬁdently be
left in the house with the alleged abuser.

App. 14
Dispo. at 3–5. Neither case is sufﬁcient to defeat qualiﬁed immunity here. In Rogers, the court declined to
ﬁnd an “imminent risk of serious bodily harm” based
on “chronic, ongoing” problems with the children’s
health and nourishment when a warrant could have
been secured “within hours.” 487 F.3d at 1295–96. That
bears no similarity to the situation presented here,
where the concern was sexual abuse and where a warrant would take 24–72 hours to obtain. And Wallis is
even further aﬁeld from this case. In Wallis, the issues
were whether removal was appropriate where the ofﬁcers did not properly investigate the underlying
charge—which was based on a “bizarre” story from an
“institutionalized mental patient” about alleged human sacriﬁce—and whether the duration of the removal and the application of the removal to both
parents were justiﬁed. 202 F.3d at 1138–41. Nothing
comparable is involved here.
Finally, the majority’s reliance on Demaree v.
Pederson, 887 F.3d 870,883 (9th Cir. 2018) (cited at
Mem. Dispo. at 3–4), is plainly improper, because that
decision postdates the events in this case. In Kisela,
the Supreme Court chastised this court for similarly
relying on a case decided after the incident in question,
because such a decision “could not have given fair notice” to government ofﬁcials years earlier and is “of no
use in the clearly established inquiry.” 138 S. Ct. at
1154 (citations and internal quotation marks omitted).
To the extent that the majority apparently thinks that
it can cite Demaree for its explanation of what the
earlier law was, that too is wrong: the Supreme Court

App. 15
reprimanded us for that as well in Kisela, holding that
we should not have relied on the case even for “illustrative” purposes. Id.
Because then-existing precedent did not place beyond debate whether there were exigencies justifying
Defendants’ warrantless removal of the children, I conclude that Defendants are entitled to qualiﬁed immunity on this issue. I therefore respectfully dissent from
sections 1 and 4 of the memorandum disposition.

App. 16
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF CALIFORNIA
SHEILA GARCIA,
CASSANDRA GARCIA,
C.N.G., a minor, and C.J.G.,
a minor, by and through
their Guardian Ad Litem,
DONALD WALKER

Case No.:
15-CV-189 JLS (NLS)

ORDER: (1) DENYING
PLAINTIFFS’ MOTION
FOR SUMMARY JUDGMENT; (2) GRANTING
Plaintiffs,
IN PART AND DENYING
IN PART COUNTY OF
v.
SAN DIEGO’S MOTION
COUNTY OF SAN DIEGO, FOR SUMMARY
SAN DIEGO HEALTH
JUDGMENT; AND
AND HUMAN SERVICES (3) GRANTING IN
AGENCY, POLINKSY
PART AND DENYING
CHILDREN’S CENTER, IN PART INDIVIDUAL
CAITLIN MCCANN,
DEFENDANTS’
GLORIA ESCAMILLAMOTION FOR
HUIDOR, SRISUDA
SUMMARY JUDGMENT
WALSH, JESUS SALCIDO,
(ECF Nos. 113, 118, 121)
MARTHA PALAFOX,
LAURA QUINTANILLA, (Filed Jun. 18, 2018)
and Does 1 through 10,
inclusive,
Defendants.
Presently before the Court are cross-motions for
summary judgment. Plaintiffs have ﬁled a Motion for
Summary Judgment, (“Pl. MSJ,” ECF No. 113), and
Defendants have ﬁled two MSJs. The ﬁrst is by the

App. 17
County of San Diego, (“County MSJ,” ECF No. 118).
The second is by Defendants Caitlin McCann, Gloria
Escamilla-Huidor, Jesus Salcido, Martha Palafox, Laura
Quintanilla, and Srisuda Walsh, (“Individuals MSJ,”
ECF No. 121). Plaintiffs ﬁled Responses in Opposition
to Defendants’ MSJs, (“Pl. Opp’n to County,” ECF No.
148; “Pl. Opp’n to Individ.,” ECF No. 148-1). Defendants collectively ﬁled a Response in Opposition to
Plaintiffs’ MSJ, (“Def. Opp’n,” ECF No. 151). Plaintiffs
ﬁled a Reply in Support of their MSJ, (“Pl. Reply,” ECF
No. 157), as did the County, (“County Reply,” ECF No.
158), and the Individual Defendants, (“Individuals Reply,” ECF No. 161).
The Court held oral argument on the Motions on
June 7, 2018. After considering the Parties’ arguments
and the law, the Court rules as follows.
BACKGROUND
Plaintiffs Sheila Garcia, Cassandra Garcia, CNG,
a minor, and CJG, a minor, ﬁled a Complaint against
the County of San Diego, San Diego Health and Human Services Agency, Polinsky Children’s Center, and
various individuals: Caitlin McCann, Gloria EscamillaHuidor, Jesus Salcido, Martha Palafox, Laura Quintanilla (now Laura Morris), and Srisuda Walsh
(hereinafter, “Individual Defendants”). (“Compl.,” ECF
No. 1.)
Plaintiffs Cassandra Garcia (“Cassandra”) and
CNG and CJG (“Minors”) resided with their mother,
Plaintiff Sheila Garcia (“Sheila”) and their father,

App. 18
Rudy Garcia (“Rudy”). Cassandra had mental health
problems, depression, and anxiety, and was hospitalized for six days in the psychiatric ward of Rady’s Children’s Hospital in early October 2012. (Pl. MSJ 6.)1
When Cassandra returned to school after these six
days, she told people she was pregnant to explain why
she had been absent. (Id. at 7.) On or about October 17,
2012, Sheila and Rudy found out about this, confronted
Cassandra, and “an emotional discussion ensued.” (Id.)
Sheila and Rudy were drinking during the discussion,
having one or two drinks each. (Id.) After the argument, Cassandra went upstairs and laid down in her
parents’ bed where her sisters CNG and CJG were
asleep. When Rudy went to bed later, he saw a ﬁgure
which he believed to be his wife, and went to wake her
up, then “took one picture of who he believed” was his
wife, and walked out.2 (Id. at 8) Cassandra had woken
up when Rudy touched her, and “didn’t know what was
going on.” (Id.)
The next day, Rudy apologized, and Cassandra
“said it was OK” but when she told Sheila, Sheila asked
1

Pin citations refer to the CM/ECF page numbers electronically stamped at the top of each page.
2
Rudy states he took this picture because he and his wife
play a “little game where if you were asleep in an odd position” or
“look funny” they would “take a picture of each other and then . . .
clown each other later.” (“Rudy Depo.,” ECF No. 125-10, at 27.) It
is unclear to the Court how Rudy believed the person in the bed
was in an “odd position” when he also testiﬁed the room was dark.
(Id. at 25.) He also testiﬁed that he was able to see his other two
daughters in the bed, one lying on her side and one lying on her
back. (Id.)

App. 19
Rudy to leave the house. (Id.) Rudy went to stay with
his cousin. Later, Rudy “explained the mistaken identity” and Cassandra conﬁrmed her understanding that
Rudy had mistaken her for her mother. (Id.) After October 2012, Cassandra continued to receive psychiatric
and therapeutic care, but still struggled with anxiety
and depression. On January 21, 2013, the Garcias took
Cassandra to the emergency room “because she had
threatened to walk into trafﬁc or take pills” and Cassandra was placed on a psychiatric hold. (Id. at 8.) On
January 22, 2013, Cassandra was hospitalized for emotional problems and the next day she told a hospital
social worker (Debra Bernaderet) about the October
2012 incident with her father. She stated her “parents
drink [until] vomiting regularly” and one evening, her
mother “became ill from drinking” and her father came
into the room and “began to ‘fondle [Cassandra] and
take nude pictures of her.’ ” (Id. (quoting ECF No. 12542, at 13 (social work form/psychosocial assessment
completed by Bernaderet)).) Bernaderet reported Cassandra was crying profusely during the conversation
and that she expressed anxiety that this would be reported to Child Protective Services (“CPS”). (Id.) Bernaderet made a mandatory referral to CPS by calling
the hotline and ﬁling a report.
Defendant McCann, who worked for the Health
and Human Services Agency (“HHSA”), was assigned
to the case on January 23, 2013. (Id. at 9.) McCann’s
supervisor was Defendant Gloria Escamilla-Huidor.
McCann interviewed Cassandra on January 28, 2013.
(Id.) At this time, McCann was accompanied by a

App. 20
detective from the Chula Vista Police Department, Detective Hinzman. In Hinzman’s follow-up report, she
summarized Cassandra’s statement as follows: father
started drinking, mother went to bed in Cassandra’s
bed, and father was unaware Cassandra and the
mother had switched beds. Father went into the room
and “rubbed Cassandra’s leg and her stomach. He took
one photo of Cassandra’s leg.” He realized he was “fooling w/ the wrong person” and went downstairs, then
apologized to Cassandra the next morning. This was
an “isolated incident” and “Cassandra feels it was accidental.” (ECF No. 125-40, at 3.)
McCann states she spoke to Cassandra privately
after the interview and Cassandra made other disclosures. (Pl. MSJ 10.) Cassandra stated that in October
2012, she and her parents were arguing because Cassandra had told her friends she was pregnant, which
was not true. (McCann Decl. ¶ 10.) During this argument, her father was “pounding down whiskey shots”
and her mother was drinking too and eventually threw
up. (Id.) Cassandra then relayed the story of Rudy
touching her while she lay in her parents’ bed, stating
Rudy “lifted up her shirt and began to rub her stomach.
As he did so, he was rubbing the underside of her
breasts.” He then took a picture of her and left. The
next morning, Rudy apologized and said he was “just
really drunk” and deleted the picture he had taken of
Cassandra in the bed. Cassandra and Rudy both
moved out separately, and moved back after a couple
weeks. Rudy stopped drinking, but then began drinking again. Cassandra said her parents drank nightly,

App. 21
drinking wine and whiskey, and “when her parents
drank, she would feed her sisters, then bring them
down to her room, watch a movie with them, and put
them to bed.” (Id.)
Plaintiffs have included a declaration by Cassandra who states McCann did not interview her separately and apart from Detective Hinzman and she
“never told McCann that [her] father rubbed the underside of [her] breasts.” (“Cassandra Decl.,” ECF No.
148-3, ¶¶ 4–5.)3 Hinzman’s statement also includes
none of the details reported by McCann. Hinzman later
testiﬁed that she does not know whether McCann
spoke to Cassandra before or after Hinzman arrived at
the hospital but she does not think this occurred. (ECF
No. 125-17, at 8.)
McCann states she met with Bernaderet who completed a psychosocial assessment of Cassandra upon
Cassandra’s admittance to the hospital on January 22,
2013. Bernaderet asked Cassandra about her parents’
drinking, and in response, Cassandra told Bernaderet
about the night where her father drank, came into
the bedroom, and touched her and took photos. (Id.
¶ 11.) When asked if her father touched her sisters inappropriately, Cassandra “responded by sobbing hysterically.” (Id.) Bernaderet also told McCann “that
Cassandra had disclosed to a nurse that her father had
ejaculated during the incident.” (Id.) There is no evidence that McCann attempted to locate this nurse to
3

At her deposition, Cassandra states she told McCann that
the incident was an “accident.” (ECF No. 125-9, at 36.)

App. 22
conﬁrm this statement. At Bernaderet’s deposition, she
testiﬁed that if Cassandra or a nurse had told her
Rudy had ejaculated on Cassandra, she would have
documented that somewhere, but she did not do so.
(ECF No. 125-1, at 9–10.) Cassandra states her father
did not ejaculate on her and she never told a nurse that
he did. (Cassandra Decl. ¶ 6.)
McCann then met with CNG at her school, who
stated her father had not inappropriately touched her.
(“McCann Depo.,” ECF No. 125-15, at 38.) CNG was
free of visible marks/bruises, denied that her parents
drink to the point of vomiting, and denied sexual
abuse. (ECF No. 125-36, at 8.) CNG recalled the incident between her father and Cassandra where “dad
thought Cassandra was mom” and denied all other
forms of abuse or neglect. (Id.) She was not scared of
anyone and felt safe at home. She stated her parents
had never talked with her about speaking to social
workers. (Id. at 7.)4
McCann then went to CJG’s daycare and did a
body check of CJG. (Pl. MSJ 10.) She found no visible
marks/bruises, and the daycare provider described the
Garcia parents as “very nice and cooperative.” (ECF
No. 125-36, at 8.) McCann then met with Sheila and
Rudy at their home. Rudy and Sheila agreed with
McCann that Rudy would move out of the house while
McCann continued her investigation. (Pl. MSJ 11.)
4

McCann states Rudy told McCann he overheard his wife
tell their daughters not to talk to social workers. (McCann Decl.
¶ 14.) Rudy told his daughters to talk to social workers and be
honest. (Id.)

App. 23
Rudy and Sheila then asked if Rudy could continue to
pick up the kids from school. (Id.) As alleged by
Plaintiffs, in response to this question, McCann and
her supervisor Huidor then decided that Minors would
be removed from their parents’ custody and that the
agency would also take control over Cassandra. (Pl.
MSJ 12, 13.) The Garcias obviously disagreed with this
decision and allege fabrication of evidence on the part
of McCann. (Id.)
Minors were taken to Polinsky Children’s Center
(“PCC”). According to Plaintiffs, Huidor then called
Sharp Mesa Vista “and told the hospital that Child
Protective Services was taking custody of Cassandra
and she should not be discharged without CPS approval.” (Id. at 14.) Cassandra had been scheduled to
go to Project Oz, a residential program, but “Huidor
and McCann countermanded that order” and placed
Cassandra at PCC. (Id.) Plaintiffs allege the children
were subject to unauthorized examination and testing
while at PCC and make other allegations regarding
Defendants’ conduct while the children were at PCC.
(Compl. ¶¶ 27–30.) After the children were placed at
PCC, the case was transferred from McCann to Defendant social worker Jesus Salcido. (Id. ¶ 32.)
On February 14, 2013, Cassandra left PCC without permission (referred to as going “AWOL”). The next
day, the children were moved out of PCC and into their
grandmother’s home. (Id.) In the next month, Cassandra was placed on a 5150 hold on three occasions “due

App. 24
to suicidal ideations.” (Pl. MSJ 17.)5 Plaintiffs allege
Salcido did not visit Cassandra and he could not be
reached to discuss Cassandra’s care. (Id.) Cassandra
was hospitalized for psychiatric reasons on March 20,
2013. (Id.)
On March 22, 2013, Cassandra was re-entered into
PCC “due to being a high level risk” after being readmitted to the hospital. (Compl. ¶ 33.) Cassandra continued to demonstrate self-harm while at PCC. (Pl.
MSJ 17.) Cassandra then went AWOL on March 24.
(Id.) On March 27, Cassandra was admitted to the hospital due to another emotional breakdown but was readmitted to PCC on March 30. (Id. at 18.) She informed
Rady’s and PCC staff that “she intended to AWOL from
PCC.” (Id.) On March 30, Cassandra again went AWOL
with two other girls. While out, they met several young
males and walked to their apartment, where Cassandra was raped. (Id.; “Cassandra Depo.,” ECF No. 127,
at 55.) Plaintiffs allege Cassandra was in the custody
of Defendants during this time and Sheila was not informed of any of this. Cassandra was then examined at
Rady’s, discharged on April 1, 2013, and returned to
PCC. (Pl. MSJ 18.) Again, Cassandra went AWOL and
“ended up again in a psychiatric facility.” (Id.) Cassandra was then prescribed a new medication and received outside therapy. (Id.)

5

A “5150 hold” refers to section 5150 of the California Welfare and Institutions Code which allows for 72–hour evaluation of
a person believed to be a danger to herself or others.

App. 25
On March 25, 2013, the sexual abuse allegations
were dropped against Rudy and about a month later,
the Garcias’ case was assigned to a new social worker.
(Id.) The social worker helped get Cassandra into a
group home, and arranged visits between the children
and their parents. Sheila returned home on July 18,
2013, and Cassandra returned home on September 20,
2013. A month later, Rudy was allowed to return home.
(Id. at 18–19.) In 2014, the Garcia case was closed. (Id.
at 19.)
Plaintiffs bring many causes of action against
all Defendants.6 These are: (1) Assault; (2) Battery;
(3) False Imprisonment; (4) Violation of Civil Rights
(First and Fourth Amendment); (5) Violation of Civil
Rights (14th Amendment Due Process); (6) Violation of
Civil Rights (14th Amendment Substantive Due Process); (7) Monell related claims; (8) Intentional Inﬂiction of Emotional Distress; (9) Violation of State Civil
Rights (Civil Code § 43); (10); Violation of State Civil
Rights (Civil Code §§ 51.7, 52); (11) Violation of State
Civil Rights (Civil Code § 52.1); and (12) Injunctive Relief.
LEGAL STANDARD
Under Federal Rule of Civil Procedure 56(a), a
party may move for summary judgment as to a claim
or defense or part of a claim or defense. Summary
6

The County of San Diego has responded noting it was erroneously sued as “San Diego Health and Human Services Agency”
and “Polinsky Children’s Center.”

App. 26
judgment is appropriate where the Court is satisﬁed
that there is “no genuine dispute as to any material
fact and the movant is entitled to judgment as a matter
of law.” Fed. R. Civ. P. 56(a); Celotex Corp. v. Catrett, 477
U.S. 317, 322 (1986). Material facts are those that may
affect the outcome of the case. Anderson v. Liberty
Lobby, Inc., 477 U.S. 242, 248 (1986). A genuine dispute
of material fact exists only if “the evidence is such that
a reasonable jury could return a verdict for the nonmoving party.” Id. When the Court considers the evidence presented by the parties, “[t]he evidence of the
non-movant is to be believed, and all justiﬁable inferences are to be drawn in his favor.” Id. at 255.
The initial burden of establishing the absence of a
genuine issue of material fact falls on the moving
party. Celotex, 477 U.S. at 323. The moving party may
meet this burden by identifying the “portions of ‘the
pleadings, depositions, answers to interrogatories, and
admissions on ﬁle, together with the afﬁdavits, if any,’ ”
that show an absence of dispute regarding a material
fact. Id. When a plaintiff seeks summary judgment as
to an element for which it bears the burden of proof, “it
must come forward with evidence which would entitle
it to a directed verdict if the evidence went uncontroverted at trial.” C.A.R. Transp. Brokerage Co. v. Darden
Rests., Inc., 213 F.3d 474, 480 (9th Cir. 2000) (quoting
Houghton v. South, 965 F.2d 1532, 1536 (9th Cir.
1992)).
Once the moving party satisﬁes this initial burden, the nonmoving party must identify speciﬁc facts
showing that there is a genuine dispute for trial.

App. 27
Celotex, 477 U.S. at 324. This requires “more than
simply show[ing] that there is some metaphysical
doubt as to the material facts.” Matsushita Elec. Indus.
Co. v. Zenith Radio Corp., 475 U.S. 574, 586 (1986). Rather, to survive summary judgment, the nonmoving
party must “by her own afﬁdavits, or by the ‘depositions, answers to interrogatories, and admissions on
ﬁle,’ designate ‘speciﬁc facts’ ” that would allow a reasonable fact ﬁnder to return a verdict for the non-moving party. Celotex, 477 U.S. at 324; Anderson, 477 U.S.
at 248. The nonmoving party cannot oppose a properly
supported summary judgment motion by “rest[ing] on
mere allegations or denials of his pleadings.” Anderson,
477 U.S. at 256.
ANALYSIS
The Court ﬁrst addresses Plaintiffs’ MSJ; within
this analysis the Court will address various requests
for summary judgment by the Individual Defendants.
The Court will then address the claims of municipal
liability, and will conclude by addressing any remaining issues in the Individual Defendants’ MSJ.
I.

Plaintiffs’ MSJ
A. The Garcia Children’s Fourth Amendment Claim

Plaintiffs allege McCann and Huidor violated the
Garcia children’s Fourth Amendment rights by unlawfully removing the children from their home. (Pl. MSJ
20.)

App. 28
“Ofﬁcials may remove a child from the custody of
its parent without prior judicial authorization only if
the information they possess at the time of the seizure
is such as provides reasonable cause to believe that the
child is in imminent danger of serious bodily injury
and that the scope of the intrusion is reasonably necessary to avert that speciﬁc injury.” Wallis v. Spencer,
202 F.3d 1126, 1138 (9th Cir. 2000). “The existence of
reasonable cause, and the related questions, are all
questions of fact to be determined by the jury.” Id. (citing McKenzie v. Lamb, 738 F.2d 1005, 1008 (9th Cir.
1984); and Smiddy v. Varney, 665 F.2d 261, 265 (9th
Cir. 1981)). “Summary judgment in favor of the defendants is improper unless, viewing the evidence in the
light most favorable to the plaintiffs, it is clear that no
reasonable jury could conclude that the plaintiffs’ constitutional rights were violated.” Id.
The Wallis court found that summary judgment
was improper if a material question of fact exists
whether (1) there was reasonable cause to believe, on
the basis of the information in the possession of the ofﬁcers, that the children faced an immediate threat of
serious physical harm or death, or, (2) the ofﬁcers’ actions of removing the children from their mother “exceeded the permissible scope of the action necessary to
protect them from that immediate threat.” Id. There
must be “speciﬁc, articulable evidence that provides
reasonable cause to believe that a child is in imminent
danger of abuse” before the state may remove children
from their parents’ custody without a court order. Id.

App. 29
Also, “reasonable avenues of investigation” must be
ﬁrst perused. Id.
1. Exigency for CNG and CJG
Plaintiffs ﬁrst argue McCann and Huidor did not
have exigency to remove CNG and CJG. Plaintiffs
point to the January 22, 2013 referral by Bernaderet,
which stated Cassandra was “unable to disclose” if her
father’s behavior had happened to her or her sisters.
(Pl. MSJ 21.) Further, in CNG’s interview, she told
McCann there was no sexual misconduct in their
home. Plaintiffs argue McCann’s interview of the Garcias at their home did not provide a basis for concern
regarding imminent injuries because the Garcias cooperated fully with McCann, Rudy agreed to move out of
the home, and both agreed to refrain from alcohol. (Id.
at 21–22.) Plaintiffs also argue that Sheila told
McCann that Sheila’s mother was driving down to stay
with the children and that CJG was in a licensed daycare. (Id.)
In response, Defendants point to McCann’s
declaration where she recounts her interviews with
Bernaderet and the Garcias. McCann states that Bernaderet told her that Cassandra “sobbed hysterically”
when asked if her father had touched her sisters inappropriately. (McCann Decl. ¶ 11.) In McCann’s interview with Sheila, McCann states Sheila described the
incident with Rudy and Cassandra as a “mistake” after
Rudy had been drinking “heavily.” (Id. at ¶ 13.) She
said Rudy thought Cassandra was Sheila and “ended

App. 30
up rubbing her leg and tummy.” (Id.) She said Cassandra did not like living in San Diego, hated her parents,
and was using the incident “to her advantage” and
would often “claim she was suicidal in order to get attention.” (Id.) Sheila denied drinking to excess or vomiting recently due to alcohol. (Id.) Sheila “continued to
speak poorly about Cassandra.” (Id.) In McCann’s interview with Rudy, he conﬁrmed Cassandra’s past suicide attempts, and agreed Cassandra was using the
touching incident as “manipulation” and “a tactic” to
move back to San Bernardino. (Id. ¶ 15.)
McCann was “concerned for the safety” of the children and asked Rudy to leave the home while she conducted the investigation. (Id. ¶ 16.) He agreed, but the
parents then said Rudy picked up their daughter from
daycare and stayed with the children at home until
Sheila got home from work. The parents did not have
anyone else who would do this. When McCann suggested the daycare provider, Ms. Campos, who cared for
CJG, the parents agreed, but McCann “was not able to
communicate with [Ms. Campos] because she spoke
only limited English.” (Id.) Plaintiffs contest this and
include a declaration by Ms. Campos who states she
and McCann spoke English to each other when
McCann came to check CJG for signs of abuse. (“Campos Decl.,” ECF No. 148-5, ¶ 7.) Ms. Campos declares
that had she been asked to care for the children while
Sheila was at work, she would have done so. (Id. ¶ 9.)
McCann could not put a safety plan in place because no one else could pick up and stay with the
girls after school. As a result, she (after speaking with

App. 31
Huidor) “agreed that the children needed to be temporarily removed and placed in protective custody.”
(McCann Decl. ¶ 17; see also ECF No. 125-36, at 46
(safety plan form ﬁlled out by McCann, but the last column states “safety plan not completed as it appear[s]
parents would not follow safety parameters”).) McCann
believed “the children were not safe because of the
overwhelming concerns regarding sexual abuse, Cassandra’s mental health, the parents’ alcohol consumption, their discrediting of Cassandra, Mrs. Garcia’s
telling the children not to talk with authorities, Mr.
Garcia’s ample contact alone with children, and the
parents’ inability to make the safety plan work.”
(McCann Decl. ¶ 17.) McCann states she believed that
the “parents might get drunk again, and that Mr. Garcia might abuse one or more of the children in the 48–
72 hours it would typically take to get a warrant.” (Def.
Opp’n 13.) McCann received Huidor’s approval in removing the children. (See “Huidor Decl.,” ECF No. 1213, ¶ 7 (“Agency practice is that social workers must obtain supervisor approval before removing children
based on exigency.”).)
Plaintiffs argue no exigency occurred and refer to
the fact that McCann did not conduct the interviews of
the Garcias until January 28 after receiving the referral on January 22. (Pl. Reply 6.) Defendants argue this
block of time is not important; what is important is
that McCann removed the children on the same day
she conducted the investigation. (Def. Opp’n 10). Defendants also note that the referral was classiﬁed as a
“10-day referral” because Cassandra was admitted to

App. 32
an inpatient facility at the time, so she was not in imminent danger of being sexually abused by her father
at that time the referral was received. (Id. at 9–10.)
The Ninth Circuit has found that a delay in investigating the case and removing the children supports
a ﬁnding of no exigency. In Rogers v. County of San
Joaquin, as here, the situation was classiﬁed as a tenday response. 487 F.3d 1288, 1296 (9th Cir. 2007). The
court noted this indicated the ofﬁcials “did not think
that any exigency existed” and the social worker then
waited eleven days to visit the house, and returned
seven days later. This delay shows that neither the social worker nor the other staff members “thought that
the allegations required immediate action.” Id. The
court concluded that the exigent circumstances required to remove the children did not exist. Id.; see also
Calabretta v. Floyd, 189 F.3d 808, 813 (9th Cir. 1999)
(holding that a 14–day delay by social workers in entering the family home to investigate a report of abuse
is evidence of lack of exigency). It is true that the present case was classiﬁed as a 10–day referral, which indicates the ofﬁcials who made the report did not deem
the children to be in immediate danger. Although Cassandra was in a facility at the time the referral was
made, and may not have been in danger, the referral
mentioned Minors and therefore it must have been
clear to the ofﬁcial that Minors could be in contact with
the father, unlike Cassandra. (See McCann Decl. ¶ 5
(discussing the Referral).) And, although McCann
waited six days after receiving the report before investigating, once she began, she met with Cassandra,

App. 33
Bernaderet, Minors, and the Garcia parents all in one
day, and Minors were taken to PCC that evening. Cassandra was taken to PCC the next day. (Id. ¶ 19.) The
timing here is therefore distinguishable from that in
Rogers.
There must be “speciﬁc, articulable evidence” that
provides reasonable cause to believe a child is in imminent danger before the state may remove children from
their parents’ custody without a court order. Wallis,
202 F.3d at 1138; see Mueller v. Auker, 700 F.3d 1180,
1186 (9th Cir. 2012) (the question is “did the ofﬁcers
have an objectively reasonable basis for fearing that
[the child] was in imminent danger”); see also Rogers,
487 F.3d at 1294 (“Ofﬁcials, including social workers,
who remove a child from its home without a warrant
must have reasonable cause to believe that the child is
likely to experience serious bodily harm in the time
that would be required to obtain a warrant.”). There
must be an “identiﬁable risk of serious harm or abuse”
in the time period before the warrant can be obtained,
no matter how long that period is. Demaree v. Pederson,
887 F.3d 870, 883 (9th Cir. 2018). Here, the period to
receive a warrant was 24 to 72 hours. (See Individuals
MSJ 10.)
Defendants argue that McCann had information
that Rudy had drank, and then fondled Cassandra,
and took pictures of her. (Def. Opp’n 12.) McCann interviewed the social worker who had spoken to Cassandra. When McCann spoke to the Garcias, she felt
the parents “minimized” the incident and “disparaged”
Cassandra. (Id. at 13.) Although Rudy agreed to leave

App. 34
the house, the parents also discussed Rudy continuing
to pick the children up from school, so it was reasonable for McCann to think he would still have contact
with the children. McCann states she was unable to
put a safety plan in place. Defendants argue this is speciﬁc evidence that made it objectively reasonable for
McCann to remove the children, who reasonably believed the children were in imminent danger during
the time it would take her to receive a warrant.
Plaintiffs dispute McCann’s version of the facts
and her choices, saying the daycare provider did in fact
speak English and McCann could have waited for the
children’s grandmother to arrive.7 Plaintiffs cite to testimony by McCann’s intern, who testiﬁed McCann was
thinking about the situation the next day and was
“thinking if she had made the right decision.” (ECF
No. 125, at 6.) Plaintiffs argue McCann’s declaration
should not be taken as true because it is contradicted
by other evidence. (Pl. Reply 7.) Indeed, the Court is
troubled by McCann’s statement that she was told
Cassandra’s father had ejaculated on her. There is no
evidence that this is true, and it is unclear why
McCann would not attempt to locate this nurse after
hearing such a gruesome detail. Bernaderet stated if
she had been told about an ejaculation event, she
would have put it in her report, which she did not.
7

McCann states that she was not informed about the grandmother coming down until after the removal decision had been
made. (McCann Decl. ¶ 18.) She also testiﬁed she was only informed the grandmother was “on her way” into town and knew
that she could not complete a mandatory background check for
the grandmother because it was after hours. (Def. Opp’n 14.)

App. 35
(ECF No. 125-1, at 7.) Plaintiffs also produced Sharp
Mesa Vista records, which do not contain the disclosure. (Pl. MSJ 10; ECF No. 125-42, at 2 (Sharp Mesa
Care Plan).) But, on the other hand, there is evidence
in the record to support the remainder of McCann’s
declaration; after all, this case began with Bernaderet’s
report that detailed Cassandra’s disclosure of the incident with Rudy.
Another court in this district has found that
“whether reasonable cause to believe exigent circumstances existed is generally a question of fact for the
jury.” Parkes v. Cnty. of San Diego, 345 F. Supp. 2d
1071, 1089 (S.D. Cal. 2004) (citing Mabe v. San Bernardino Cnty. Dep’t of Public Social Servs., 237 F.3d 1101,
1108 (9th Cir. 2001)). The Court ﬁnds this general
proposition to be true here as well. There is a genuine
issue of material fact as to whether a reasonable social
worker could believe her action in removing the children from the parents’ custody in this situation was
lawful. See Wallis, 202 F.3d at 1138 (holding summary
judgment is improper unless, viewing the evidence in
light most favorable to the other party, “it is clear that
no reasonable jury could conclude that the plaintiffs’
constitutional rights were violated”).8 The Court ﬁnds
8

Also, as Plaintiffs point out, children may not be seized “unless reasonable avenues of investigation are ﬁrst pursued, particularly where it is not clear that a crime has been—or will be—
committed.” Wallis, 202 F.3d at 1138. The Court ﬁnds there is an
issue of material fact as to whether the social workers pursued
every reasonable avenue of investigation. Whether a reasonable
avenue exists “depends in part upon the time element and nature
of the allegations.” Id. Plaintiffs argue that McCann should have

App. 36
that a question of material fact exists as to the reasonableness of McCann’s decision in removing Minors
from the Garcia home without a warrant.
2. Exigency for Cassandra
Plaintiffs argue Cassandra was also not in imminent danger when she was removed to PCC by CPS.
Plaintiffs point to the fact that the referral was made
on January 22, 2013 and McCann did not interview
Cassandra until January 28. (Pl. MSJ 22.) At that
time, Cassandra was still in the hospital and was expected to be discharged to Project Oz. (Id. at 23.)
Defendants agree that Cassandra was at the psychiatric unit at the time she was removed to PCC, and
agree that the plan was to discharge Cassandra to Project Oz. (Def. Opp’n 14.) But Defendants note that Cassandra was on a voluntary hold in the psychiatric unit
and was to be discharged to Project Oz on a voluntary
basis “meaning that she could leave and return home
or that her parents could check her out of either program at any time.” (Id. (citing the deposition of Dr.
Michael Juboori, a doctor at Sharp Mesa Vista).)
done more, such as ask the daycare provider to care for the children, McCann declares that this was not feasible because there
was a language barrier with the daycare provider. Plaintiffs argue McCann could have waited for the children’s grandmother to
arrive and care for the children, but McCann declares she was not
informed of this until after she had made the decision to remove
the children and was not convinced the grandmother was an adequate caretaker. Given the disparities in evidence, an issue of material fact exists.

App. 37
Plaintiffs argue this is speculative and does not qualify
as evidence of imminent danger. (Pl. Reply 9 (citing
Bailey v. Newland, 263 F.3d 1022, 1033 (9th Cir. 2001)
(showing exigent circumstances is not satisﬁed by
“mere speculation that the exigency exists”)).)
As noted above, the question is whether it was reasonable for McCann to release Cassandra to PCC.
There is no indication the Garcias intended to check
Cassandra out of the psychiatric unit. However, it is
unclear how simple the process would be for them to
check her out should they have so desired; after all,
Cassandra was released to CPS the day after McCann
began her investigation. It is possible the Garcias
could have likewise discharged Cassandra immediately. There is also no evidence that Cassandra intended to leave the hospital on her own nor is there
any information as to whether she wanted to go to Project Oz or return home. But, it is reasonable to assume
that Cassandra was feeling conﬂicted and troubled at
the time regarding her family situation. The Court
raises this issues because they go to the weight of evidence and create a dispute of material fact as to the
reasonableness of McCann’s decision. The Court DENIES Plaintiffs’ Motion for Summary Judgment for
the Fourth Amendment claim as to all three Garcia
children.9
9

Defendants also assert the social workers are protected by
qualiﬁed immunity. Because the Court has determined the issue
of whether the social workers’ beliefs and actions were reasonable
involves disputed issues of material fact, the Court does not make
a qualiﬁed immunity determination here. See Santos v. Gates, 287

App. 38
The Court also DENIES the County’s Motion for
Summary Judgment as to Plaintiffs’ allegation that
in 2013, the County had a policy, practice, or custom
of “detaining and/or removing children from their
parents without exigent circumstances, court order
and/or consent of their parent or legal guardian, and
without consideration of less restrictive methods.”
(County MSJ 10; Compl. ¶ 73(b).) A jury must determine whether or not a constitutional violation
occurred before it may be determined whether the
County’s alleged policy was a moving force behind any
constitutional violation.
B. Sheila’s Fourteenth Amendment Rights
Plaintiffs allege McCann and Huidor violated
Sheila’s Procedural and Substantive Due Process
rights. (Pl. MSJ 24–25.) For this claim, courts apply the
test as articulated in Wallis: “Parents and children
have a well-elaborated constitutional right to live together without governmental interference.” 202 F.3d at
1136. “The Fourteenth Amendment guarantees that
parents will not be separated from their children
F.3d 846, 855 n.12 (9th Cir. 2002) (ﬁnding it premature to decide
the qualiﬁed immunity issue “because whether the ofﬁcers may
be said to have made a ‘reasonable mistake’ of fact or law may
depend on the jury’s resolution of disputed facts and the inferences it draws therefrom”) (internal citation omitted). See also
Wilkins v. City of Oakland, 350 F.3d 949, 956 (9th Cir. 2003)
(“Where the ofﬁcers’ entitlement to qualiﬁed immunity depends
on the resolution of disputed issues of fact in their favor, and
against the non-moving party, summary judgment is not appropriate.”).

App. 39
without due process of law except in emergencies.”
Mabe, 237 F.3d at 1107. Ofﬁcials violate this right if
they remove a child from the home absent “information
at the time of the seizure that establishes ‘reasonable
cause to believe that the child is in imminent danger
of serious bodily injury and that the scope of the intrusion is reasonably necessary to avert that speciﬁc injury.’ ” Id. at 1106 (quoting Wallis, 202 F.3d at 1138).
The Court has analyzed the issue of exigency, see
supra Section I.A. For the same reasons as articulated
above, the Court DENIES Plaintiffs’ Motion for Summary Judgment for Sheila’s Fourteenth Amendment
claim. Individual Defendants also moved for summary
judgment on this claim, (Individuals MSJ 41–43), and
because the Court ﬁnds a genuine issue of material
fact exists, it DENIES Defendants’ Motion as to this
claim.
C. Sheila’s Right to Make Decisions Regarding Cassandra’s Treatment
Plaintiffs allege McCann and Huidor violated
Sheila’s right to make important decisions about Cassandra’s medical care and treatment by “concealing
their investigation from Sheila and countermanding
the decision for intensive therapeutic inpatient treatment at Project Oz.” (Pl. MSJ 25.) The “right to family
association includes the right of parents to make important medical decisions for their children, and of
children to have those decisions made by their parents
rather than the state.” Wallis, 202 F.3d at 1141 (citing

App. 40
Parham v. J.R., 442 U.S. 584, 602 (1979)). This is a right
guaranteed under the Fourteenth Amendment. Id.
Such a right is not absolute: the “rights of children
and parents to be free from arbitrary and undue governmental interference” must be balanced against “the
legitimate role of the state in protecting children from
abusive parents.” Id. at 1130; see also Greene v.
Camreta, 588 F.3d 1011, 1015–16 (9th Cir. 2009), vacated in part on other grounds, 563 U.S. 692 (2011)
(“On one hand, society has a compelling interest in
protecting its most vulnerable members from abuse
within their home. . . . On the other hand, parents have
an exceedingly strong interest in directing the upbringing of their children.”). But as the Ninth Circuit
has cautioned, “in the area of child abuse, as with the
investigation and prosecution of all crimes, the state is
constrained by the substantive and procedural guarantees of the Constitution.” Wallis, 202 F.3d at 1130.
Case law has not clearly established how these competing rights should be balanced.
Defendants argue Cassandra’s placement at PCC
was not a medical treatment decision but was “a decision made by social workers to protect a child in danger of being abused by her father at her home.” (Def.
Opp’n 16.) Defendants argue the social workers did not
commit Cassandra to a psychiatric hospital or any facility but placed her in protective custody at emergency
shelter. (Id.) Essentially, Defendants invite the Court
to view the incident in isolation. The Court declines to
follow Defendants’ reasoning and piecemeal the decision by CPS; certainly, placing a child at PCC alone is

App. 41
not a medical decision. Instead, the Court analyzes
Cassandra’s situation as a whole: the decision to remove Cassandra from the hospital and place her at
PCC instead of transferring her to Project Oz. The issue is whether this series of events was a “medical decision” made by the social workers, and thus, whether
Sheila’s rights were violated.
Plaintiffs deposed Dr. Michael Juboori, a doctor at
Sharp Mesa Vista. D r. Juboori testiﬁed that the original plan was to send Cassandra to Project Oz. (ECF
No. 154, at 8.) He testiﬁed it was CPS’s “decision to
take her to Polinsky, and . . . I can’t say not to send her
to this versus this. That’s their decision and we agreed
with it.” (Id. at 10.) He testiﬁed that a decision to discharge a patient is a “team decision” but he is “the last
one who will ﬁnal discharge.” (Id. at 11.) Cassandra’s
Psychiatric Discharge Summary states: “Initially, we
thought the patient could go to Oz Program, but apparently CPS decided it would be best for the patient, according to their assessment, to be going to Polinsky
Home, which they did.” (ECF No. 154-1, at 4.) It goes
on to state: “The patient has revealed allegation of
sexual abuse by her father. As a result of that CPS
intervened, and according to our knowledge, the patient was taken to Polinsky Home for further intervention by CPS.” (Id. at 5; see also id. (“The patient was
discharged to Child Protective Services.”).)
On balance, the Court ﬁnds that Plaintiffs are not
entitled to summary judgment on Sheila’s Fourteenth
Amendment claim. Plaintiffs have not met their burden in proving there is no disputed fact that a medical

App. 42
treatment decision was made for Cassandra by CPS,
and, balanced against the state’s interest in protecting
children, this decision violated Sheila’s constitutional
rights. The Court ﬁnds the question of whether Sheila’s
rights were violated by this decision is more appropriate for a jury. The Court DENIES Plaintiffs’ Motion for
Summary Judgment as to this claim.
D. Plaintiffs’ Fourteenth Amendment Claim:
Judicial Deception
Plaintiffs allege McCann violated their Fourteenth Amendment rights through McCann’s judicial
deception. (Pl. MSJ 27.) As background, a few days after the Garcia children were placed at PCC, a hearing was held at the Juvenile Court. At this hearing,
McCann submitted a Juvenile Dependency Petition,
and the court ordered the children remain out of the
home. Plaintiffs argue McCann lied in the petition. In
this report, McCann declared under penalty of perjury
that Rudy “sexually abused [Cassandra], including
touching the child’s breast and vaginal area under her
clothes and taking a photograph of her bare chest.”
(ECF No. 125-36, at 50.)
To establish a claim of judicial deception under 42
U.S.C. § 1983, a plaintiff must “(1) establish that the
. . . afﬁdavit contained misrepresentations or omissions material to the ﬁnding of probable cause, and
(2) make a ‘substantial showing’ that the misrepresentations or omissions were made intentionally or with
reckless disregard for the truth.” Bravo v. City of Santa

App. 43
Maria, 665 F.3d 1076, 1083 (9th Cir. 2011) (citing
Ewing v. City of Stockton, 588 F.3d 1218, 1223–24 (9th
Cir. 2009)).
Defendants argue the statements were not false as
evidenced by Bernaderet’s report and Cassandra’s
statement to McCann. (Individual Def. MSJ 11; see
ECF No. 125-42 (Suspected Child Abuse Report: “Dad
came into the room and began to fondle [patient’s]
breasts, he groped her inner thigh, and took several
nude pictures of her. [Patient] tearful and unable to say
if this has happened previously or to her sisters.”)). Defendants argue because Plaintiffs cannot show that
McCann presented false information, Plaintiffs cannot
win on summary judgment as to this claim.
Plaintiffs point out that certain statements in
McCann’s report are “not in any of the records in this
case.” (Pl. MSJ 27; Pl. Reply 11–12.) While it is true
that the speciﬁc allegation that Rudy touched Cassandra’s “vaginal area” and took photos of her “bare chest”
are not in the report provided to McCann, the report
did state that Rudy touched Cassandra’s breasts, put
his hand down her pants, and took pictures. A showing
of a minor difference, or even exaggeration, between
Bernaderet’s report and McCann’s report does not
demonstrate that McCann deliberately or recklessly
made misrepresentations to the court.
The Court ﬁnds that Defendants have presented a
question of material fact as to Plaintiffs’ judicial deception claim against McCann. Based on the evidence
available to McCann, there is a factual dispute as to

App. 44
whether the information she presented was deliberately or recklessly false. Having read the report by Bernaderet, McCann at least had a basis for making these
statements in her report. Further, the Court cannot determine as a matter of law whether this information
was material to the Juvenile Court in making its decision. The Court DENIES Plaintiffs’ Motion for Summary Judgment as to this claim.10
E. Physical Examinations
Plaintiffs allege the physical examinations of the
Garcia children at PCC and the mental assessment of
Cassandra by a County psychiatrist violated the Garcias’ constitutional rights. (Pl. MSJ 36.) The Parties
10

Further, the Court ﬁnds that McCann and Huidor are not
entitled to absolute immunity for the judicial deception claim, as
Defendants argue. “Social workers ‘enjoy absolute, quasi-judicial
immunity when making post-adjudication custody decisions pursuant to a valid court order.’ ” Mabe, 237 F.3d at 1109 (quoting
Babcock v. Tyler, 884 F.2d 497, 503 (9th Cir. 1989)). The immunity “covers the ofﬁcial activities of social workers only when they
perform quasi-prosecutorial or quasi-judicial functions in juvenile
dependency court.” Hardwick, 844 F.3d at 1115. Social workers
may have absolute immunity when discharging functions that are
“critical to the judicial process itself.” Beltran v. Santa Clara
Cnty., 514 F.3d 906, 908 (9th Cir. 2008). “But they are not entitled
to absolute immunity from claims that they fabricated evidence
during an investigation or made false statements in a dependency
petition afﬁdavit that they signed under penalty of perjury, because such actions aren’t similar to discretionary decisions about
whether to prosecute.” Id. Because the Court ﬁnds above that
there is a genuine issue of material fact as to whether McCann
engaged in judicial deception, the Court similarly here ﬁnds that
McCann (and Huidor, who signed the reports) are not entitled to
absolute immunity.

App. 45
have provided PCC’s Admission Physical Examination
form, completed by PCC doctors for the Garcia sisters.
Both Minors’ evaluations indicate they were generally
evaluated as to almost all parts of their body, (ECF No.
125-37, at 4; ECF No. 125-38, at 5). Cassandra was also
evaluated physically and mentally. (ECF No. 125-39 at
1–11.)
Plaintiffs request the Court defer ruling on this issue until the Ninth Circuit issues an opinion in Mann
v. County of San Diego, 147 F. Supp. 3d 1066 (S.D. Cal.
2015). Plaintiffs state the decision “will likely be dispositive of all of the issues in the present matter” related to examinations conducted at PCC. (ECF No. 165,
at 2.) At oral argument, Defendants stated they did not
oppose this request. The Court DEFERS ruling on this
issue. The Parties SHALL submit supplemental briefing on this issue within ten (10) days of the Ninth Circuit issuing an opinion in Mann.
F. Cassandra’s Fourteenth Amendment Claim:
Regarding Defendant Salcido
Plaintiffs allege Salcido violated Cassandra’s
Fourteenth Amendment rights by failing to keep her
safe. (Pl. MSJ 28.) Salcido was assigned as the social
worker to Cassandra’s case once she was ordered to be
detained at PCC. Plaintiffs state Salcido waited two
weeks after the case was assigned to him to visit Cassandra at PCC. (Pl. MSJ 28.) When Cassandra went
AWOL, Salcido “would have received notiﬁcation” of
this event, but he never notiﬁed the Garcias of the

App. 46
event. (Id.) When Cassandra was put in her grandmother’s care, Salcido did not provide services to Cassandra and did not visit Cassandra when she was
psychiatrically hospitalized four times in March 2013.
(Id. at 29.) He did not attempt to arrange placement
for Cassandra at a therapeutic group home and did not
check on her when she was placed back at PCC. (Id.)
He did not visit her when she was hospitalized again
and did not intervene when Cassandra continued to go
AWOL. (Id.) He also did not take any action until nine
days after he found out about the rape. (Id.) Plaintiffs
argue this deliberate indifference violated Cassandra’s
Fourteenth Amendment right “to continued safety and
security while in the County’s care.” (Id.)
Defendants’ argument against this claim is threefold: (1) “Salcido has absolute immunity for following
the Court’s orders and advocating the Agency’s positions”; (2) “Plaintiffs’ allegations against him do not
rise to the level of constitutional violations”; and (3) “he
is entitled to qualiﬁed immunity if his acts and omissions did not violate Plaintiffs’ clearly established
rights.” (Def. Opp’n 20.) The Court ﬁrst addresses the
underlying question of whether Salcido violated Plaintiffs’ constitutional rights.
Defendants argue Plaintiffs are merely criticizing
how Salcido did his job, and do not adequately allege
constitutional violations. (Id. at 21.) As to Salcido’s alleged failure to visit Cassandra and check on her, Defendants argue “Plaintiffs have no clearly established
rights to be visited by a social worker within any period of time, checked on at any particular time in their

App. 47
placements, or have their mental health issues discussed with professionals.” (Id. at 22.) Defendants argue this does not constitute a Fourteenth Amendment
violation. Similarly, Defendants argue Salcido’s failure
to notify Cassandra’s parents about Cassandra going
AWOL does not constitute a violation of the Fourteenth Amendment. (Id. at 23.) Further, Defendants
argue Cassandra received therapy at PCC and there is
no right to receive therapy or mental health care while
in government care. (Id.) As to Cassandra’s placement
in a group home, Defendants state “Salcido sought and
obtained a court order for her to be placed in a group
home.” (Id. at 23–24.) In sum, Defendants argue Salcido’s conduct did not shock the conscience or rise to
the level of deliberate indifference. (Id. at 24.)
“Once the state assumes wardship of a child, the
state owes the child, as part of that person’s protected
liberty interest, reasonable safety and minimally adequate care. . . .” Lipscomb By and Through DeFehr v.
Simmons, 962 F.2d 1374, 1379 (9th Cir. 1992). Cassandra was a ward of the state when she was ordered to
be detained at PCC and was therefore owed this protection. She argues that her rights were violated by
Salcido’s failure to provide reasonable safety and care.
To violate due process, state ofﬁcials must act with
such deliberate indifference to a person’s liberty interest that their actions “shock the conscience.” Brittain v.
Hansen, 451 F.3d 982, 991 (9th Cir. 2006) (citation
omitted). Conduct “shocks the conscience” when it is
done with “deliberate indifference to a known, or so obvious as to imply knowledge of, danger.” Kennedy v.

App. 48
City of Ridgeﬁeld, 439 F.3d 1055, 1064 (9th Cir. 2006)
(internal quotation marks omitted).
It appears that Salcido certainly could have done
more for Cassandra as her assigned social worker. See
Tamas, 630 F.3d at 843 (holding “the duty of guarding
[a dependent’s] safety . . . is the quintessential responsibility of the social workers assigned to safeguard the
well-being of this helpless and vulnerable population”).
But, there is no evidence that Cassandra was suffering
at PCC, as she was receiving therapy there (although
Plaintiffs argue it was minimal, (Pl. MSJ 16)). There is
also no allegation that she was not receiving basic, adequate care, and, she was out of her parents’ home,
which is what the Court had ordered. Further, Salcido
declares he attended a meeting with the Garcia parents and several staff of the Health and Human Services Agency. (“Salcido Decl.,” ECF No. 121- 5, ¶ 6.) He
states as a result of the meeting, the children were
placed with their grandmother. He also states after he
found out Cassandra had been placed in a psychiatric
hospital due to being suicidal, he conducted a meeting
with other Agency staff “to discuss a proper placement
for Cassandra.” (Id. ¶ 9.) He states that he arranged
for Cassandra to be placed back at PCC after her release from the hospital, and stated he would ask at the
court hearing on March 25, 2013 that Cassandra be
placed in a higher level of care. (Id.) Before the hearing,
he “prepared and submitted an Addendum Report to
the juvenile court recommending that Cassandra be
placed in a higher level of care, speciﬁcally a group

App. 49
home.” (Id. ¶ 10.) The court agreed with the recommendation and ordered the higher level of care. (Id.)
Both Parties seem to agree on the actions Salcido
took and did not take. However, after considering all
of the evidence presented by both sides, the Court cannot ﬁnd as a matter of law whether Salcido acted in a
manner so intentional and offensive as to shock the
conscience. Accordingly, Plaintiffs’ request for summary judgment on their Fourteenth Amendment claim
against Salcido is DENIED.11
1. Absolute Immunity for Defendant Salcido
The defense of absolute immunity is asserted regarding Plaintiffs’ allegations that Salcido did not attempt to arrange placement for Cassandra at a group
home.
“Social workers ‘enjoy absolute, quasi-judicial immunity when making post-adjudication custody decisions pursuant to a valid court order.’ ” Mabe, 237 F.3d
at 1109 (quoting Babcock v. Tyler, 884 F.2d 497, 503
(9th Cir. 1989)). The immunity “covers the ofﬁcial activities of social workers only when they perform quasiprosecutorial or quasi-judicial functions in juvenile
11

Defendants argue “[e]ven if any of Salcido’s alleged acts or
omissions rose to the level of a constitutional violation, he is still
entitled to qualiﬁed immunity because the contours of Cassandra’s rights were not clearly established under the speciﬁc circumstances of this case.” (Def. Opp’n 24.) Because the issue of
whether Salcido’s conduct rose to the level of a constitutional violation is a question for the jury, an analysis of qualiﬁed immunity
is premature. See supra footnote 9.

App. 50
dependency court.” Hardwick v. Cnty. of Orange, 844
F.3d 1112, 1115 (9th Cir. 2017). Social workers may
have absolute immunity when discharging functions
that are “critical to the judicial process itself.” Beltran
v. Santa Clara Cnty., 514 F.3d 906, 908 (9th Cir. 2008).
“[S]ocial workers are not afforded absolute immunity
for their investigatory conduct, discretionary decisions or recommendations.” Tamas v. Dep’t of Social &
Health Servs., 630 F.3d 833, 842 (9th Cir. 2010). Examples of such discretionary decisions include “decisions
and recommendations as to the particular home where
a child is to go or as to the particular foster parents
who are to provide care.” Miller v. Gammie, 335 F.3d
889, 898 (9th Cir. 2003)
Defendants argue “Salcido has absolute immunity
for his recommendations (or failure to make recommendations) in Court.” (Def. Opp’n 21.) Defendants argue Salcido also has absolute immunity for following
the Juvenile Court’s order authorizing Cassandra’s
placement at PCC. (Id.). In reply, Plaintiffs argue the
court’s order was to detain Cassandra at “Polinsky
Child Ctr., approved foster home, adjunct, or detained
in a licensed group home.” (Pl. Reply 14 (emphasis
added) (citing ECF No. 125-36, at 62 (court order); ECF
No. 153-19, at 2 (detention report).) Plaintiffs state
Salcido therefore had the obligation to place Cassandra at an adequate placement. (Id.)12
12

The court order also states: “The social worker is given the
discretion to detain the minor with a relative or non-relative extended family with concurrence of minor’s counsel.” (ECF No. 12536, at 62). Cassandra was transitioned into her grandmother’s

App. 51
The Court ﬁnds that Defendants have not proven
that Salcido has absolute immunity for his actions. As
alleged, Salcido engaged in discretionary decisions
when he kept Cassandra at PCC and did not place Cassandra at a different facility. See Miller, 335 F.3d at 898
(“To the extent . . . that social workers also make discretionary decisions and recommendations that are
not functionally similar to prosecutorial or judicial decisions, only qualiﬁed, not absolute immunity, is available.”) Because his actions were discretionary, he is not
entitled to absolute immunity.
2. Fourteenth Amendment Claim: Regarding Defendants Palafox and Quintanilla
Individual Defendants move for summary judgment on this claim of a Fourteenth Amendment violation for Salcido and his two supervisors, Palafox and
Quintanilla. (Individuals MSJ 38.) Plaintiffs have alleged that these defendants should have more thoroughly reviewed Salcido’s work before reviewing his
forms. The Court ﬁnds that Plaintiffs have not alleged
that these Defendants’ conduct shocked the conscience.
At most, Plaintiffs have alleged that these Defendants
should have spent more time reviewing another social’s work; this does not amount to deliberate indifference. The Court GRANTS Individual Defendants’
care, (Pl. MSJ 28), and Plaintiffs do not appear to allege Salcido
failed to exercise this discretion in encouraging this. However,
this language in the order bolsters the Court’s ﬁnding that Salcido
was given the authority to make discretionary decisions in the
children’s best interests.

App. 52
Motion for Summary Judgment as to the Fourteenth
Amendment claim against Palafox and Quintanilla.
G. State Law Claims
Plaintiffs bring eight state-law claims: assault,
battery, false imprisonment, intentional inﬂiction of
emotional distress, injunctive relief, and three violations of state statutes (Civil Code §§ 43, 51.7/52, and
52.1). Plaintiffs request summary judgment on only
two of their state law claims: false imprisonment and
claim pursuant to Civil Code § 43. The Court ﬁrst addresses Defendants’ argument that Plaintiffs have
waived the ability to bring their state law claims because Plaintiffs untimely submitted their claims under
the California Tort Claims Act.
California has sovereign immunity against tort
claims for money damages, but the California Tort
Claims Act (“CTCA”) provides a limited waiver of this
immunity. Under the CTCA, a plaintiff can bring tort
claims against state and local public entities only if the
plaintiff complies with the strict procedural requirements enumerated in the CTCA. See Cal. Gov. Code
§ 815. Among the procedural prerequisites for civil suit
is the CTCA’s requirement that a claimant ﬁle a written claim with the proper public entity. See id. §§ 905.2,
910, 911.2, 945.4. The claim must be presented to the
relevant public entity no later than six months after
the cause of action accrued. Id. § 911.2. If the claim is
not presented within that time, a written application
may be made to the public entity for leave to present

App. 53
the late claim. Id. § 911.4. The application must be presented to the public entity “within a reasonable time
not to exceed one year after the accrual of the cause of
action and shall state the reason for the delay in presenting the claim.” Id.
1. Accrual
Under California Government Code § 901,
The date of the accrual of a cause of action to
which a claim relates is the date upon which
the cause of action would be deemed to have
accrued within the meaning of the statute of
limitations which would be applicable thereto
if there were no requirement that a claim be
presented to and be acted upon by the public
entity before an action could be commenced
thereon.
Here, Plaintiffs allege, for example, the children were
falsely imprisoned when they were “taken from their
parents’ care and custody and interred at PCC.” (Pl.
MSJ 44; Compl. ¶ 51.) This cause of action would accrue on January 28 and 29, 2013, when the children
were placed at PCC. Similarly, the other state law actions stem from the removal. (See Compl. ¶ 40 (assault
claim); id. ¶ 45 (battery claim); id. ¶ 79 (intentional inﬂiction of emotional distress claim); ¶ 85 (claim under
Cal. Civil Code § 43); ¶ 94 (claim under Cal. Civil Code
§ 51.7 and § 52); and ¶ 102 (claim under Cal. Civil
Code § 52.1). The claims presentation statute thus began when the children were removed on January 28
and 29, 2013. Plaintiffs submitted their claims to the

App. 54
agency on September 24, 2014. (Individuals MSJ 44.)
Plaintiffs argue tolling makes their ﬁling timely.
2. Tolling
Plaintiffs make two arguments why the statute
should be tolled. First, Plaintiffs state September 24,
2014 is “within six months of when the County stopped
its investigation of Plaintiffs.” (Pl. Opp’n to Individ.
46.) Plaintiffs state that while Defendants ﬁrst contacted Plaintiffs in January 2013, they “continued
their investigation” through March 26, 2014, and the
claims presentation statute should be tolled through
this time. (Id. (citing Ortega v. Pajaro Valley Uniﬁed
Sch. Dist., 64 Cal. App. 4th 1023, 1047 (Ct. App. 1998)).)
As mentioned above, the CTCA provides a strict
timeline in which a plaintiff must ﬁle his claims. But,
the claims presentation statute is tolled during the periods when the public entity’s afﬁrmative acts deter
the ﬁling of a claim. John R. v. Oakland Uniﬁed Sch.
Dist., 769 P.2d 948, 951 (Cal. 1989). This case does not
say the statute is tolled while County employees are
continuing to investigate the allegations. Plaintiffs
have not pointed to any authority, nor can the Court
locate any, that states the statute is tolled during a
standard investigation. Plaintiffs’ argument that “[t]he
County’s continuing investigation and constant contact with the Garcia family through March 26, 2014
was an absolute deterrent” to their ﬁling of the claims
is without support and unavailing. See Ortega, 64
Cal. App. 4th at 1045 (“Claims of estoppel have been

App. 55
rejected . . . where the plaintiff cannot show calculated
conduct or representations by the public entity or its
agents that induced the plaintiff to remain inactive
and not to comply with the claims-presentation requirements.”). The statute is not tolled for this reason.
Second, Plaintiffs cite to California Government
Code § 911.4. The claims presentation statute is tolled
when a person “is detained or adjudged to be a dependent child of the juvenile court” if: “[t]he person is in the
custody and control of an agency of the public entity to
which a claim is to be presented.” § 911.4(c)(2). Further, the statute is tolled “during which a minor is
adjudged to be a dependent child of the juvenile
court” and “the minor is without a guardian ad litem
or conservator for purposes of ﬁling civil actions.”
§ 911.4(c)(3).
Here, Defendants concede that the claims presentation statute was tolled from March 25, 2013
(when the children were adjudged dependents of the
juvenile court) to March 26, 2014 (when jurisdiction
was terminated). (Individuals Reply 18); see Cnty. of
Los Angeles v. Superior Court, 91 Cal. App. 4th, 1303,
1310 (Ct. App. 2001) (holding the parents of the minors
“had no legal right to custody and control of Minors
until the dependency case ended”). But, the statute ran
from January 28, 2013 (the date of removal) to March
25, 2013, i.e., 56 days. The children were not adjudged
dependents during this time. It then ran from March
25, 2014 to September 24, 2014 (when the Garcias ﬁled
their claim), i.e., almost six months. Defendants argue

App. 56
Plaintiffs must have ﬁled their claims on July 28, 2014
for them to be timely.
There is no provision that the claims presentation
statute is tolled when minors are not in the physical
custody of their parents, but have not yet been adjudged dependents of the court (here, the time from
January 28 to March 25, 2013). Thus, this time counts
towards the six-month requirement. Because, in totality and even considering tolling, Plaintiffs did not ﬁle
their claims within six months of accrual, their state
law claims are untimely. While the Court appreciates
the argument that cases should be decided on the merits rather than on procedural grounds, (Pl. Opp’n to Individ. 47), Plaintiffs have failed to comply with strict,
technical requirements of California law. The Court
GRANTS Defendants’ Motion for Summary Judgment
regarding Plaintiffs’ state law claims.
II.

Monell Claims (Plaintiffs’ and the County’s
MSJs)

Plaintiffs request summary judgment on their Monell claims against the County. (Pl. MSJ 30); see Monell
v. N.Y.C. Dep’t. of Social Servs., 436 U.S. 658 (1978). The
County likewise requests summary judgment on the
claims. (County MSJ.) The Court will address Plaintiffs’ Motion ﬁrst. Plaintiffs claim liability against the
County under two methods: ﬁrst by arguing that the
County had policies that violated Plaintiffs’ constitutional rights and second by arguing that the County

App. 57
engaged in deﬁcient supervision and training. (Pl. MSJ
30.)
A. Legal Standard
To establish municipal liability under § 1983 for
violation of constitutional rights, the plaintiffs must
show that (1) they were deprived of a constitutional
right; (2) the County had a policy; (3) the policy
amounted to a deliberate indifference to the constitutional right; and (4) the policy was the “moving force
behind the constitutional violation.” Mabe, 237 F.3d at
1110–11 (citing Van Ort v. Estate of Stanewich, 92 F.3d
831, 835 (9th Cir. 1996)).
In regards to the second element,
[T]here are three ways to show a policy or custom of a municipality: (1) by showing “a
longstanding practice or custom which constitutes the standard operating procedure of the
local government entity”; (2) “by showing that
the decision-making ofﬁcial was, as a matter
of state law, a ﬁnal policy making authority
whose edicts or acts may fairly be said to represent ofﬁcial policy in the area of decision”;
or (3) “by showing that an ofﬁcial with ﬁnal
policymaking authority either delegated that
authority to, or ratiﬁed the decision of, a subordinate.”
Villegas v. Gilroy Garlic Festival Ass’n, 541 F.3d 950,
964 (9th Cir. 2008) (quoting Ulrich v. City & County of
San Francisco, 308 F.3d 968, 984–85 (9th Cir. 2002)).

App. 58
B. Plaintiffs’ First Monell Theory: Unlawful Policies
Plaintiffs argue the County has various policies
that were moving forces behind the violations of Plaintiffs’ constitutional rights by Defendant social workers.
1. Warrant Process
Plaintiffs argue the County’s warrant process
ensures constitutional violations. Plaintiffs state
“every social worker, supervising social worker, social
worker trainee, and person most knowledgeable for
the County who was asked testiﬁed that it takes, at a
minimum, 2 full business days to obtain a protective
custody warrant . . . because they are required, due to
County policy, to conduct a full investigation and prepare a Detention Report rather than simply submit a
Petition.” (Pl. MSJ 31–32.) Plaintiffs also state various
witnesses have testiﬁed that no warrants are issued on
the weekends or after hours. (Pl. Reply to County 14
(citing e.g., “Huidor Depo,” ECF No. 125-6, at 15).)
Plaintiffs argue “the County’s warrant process was a
moving force behind the constitutional violations” of
removing the Garcia children without exigency. (Pl.
MSJ 33.)
The Court ﬁnds there is a genuine issue of material fact as to whether the County’s warrant process
was a moving force behind Plaintiffs’ alleged constitutional violations. McCann states she removed the children because, in part, she believed that the “parents
might get drunk again, and that Mr. Garcia might

App. 59
abuse one or more of the children in the 48–72 hours it
would typically take to get a warrant.” (Def. Opp’n 13.)
This time limit is a factor in the reasonableness of
McCann’s decision, see supra Section I.A. The Court
DENIES both Plaintiffs’ and Defendant’s Motions for
Summary Judgment as to this claim.
2. Discharge Policy
Plaintiffs argue the County had no practices surrounding discharges of children from hospitals to PCC.
(Pl. MSJ 33.) Plaintiffs agree the County had a “ ‘policy’
to address the needs of such children,” but the social
workers disregarded it and never used it. (Id. at 34.)
Plaintiffs argue the “failure to implement such practices” violates the County’s duty to safeguard the wellbeing of children. (Id.) Plaintiffs state the County’s
lack of implementation for these policies was a moving force behind the violation of Cassandra’s Fourth
Amendment right and Sheila’s Fourteenth Amendment right, as addressed above. (Pl. Reply 10–11.) The
Court ﬁnds, supra Section I.A.2., that there is a question of material fact as to whether a violation occurred
when Cassandra was discharged and taken to PCC.
The Court DENIES Plaintiffs’ Motions for Summary
Judgment as to this claim.
3. Failure to Notify Parents
Plaintiffs’ allege that the County had a policy,
practice, or custom of “[f ]ailing to notify, discuss, consult, and obtain the consent of, parents when making

App. 60
medical and/or mental health decisions regarding
their minor child, including during removals from hospitalizations.” (Compl. ¶ 73 (k).) The County argues
that the policy in fact provided that “when a child is
evaluated for potential hospitalization or is hospitalized, the assigned social worker should immediately
notify the child’s parents.” (County MSJ 30.)
Even if a jury determines that CPS failed to notify
Sheila when making a medical decision for Cassandra,
see supra Section I.C., Plaintiffs have not alleged that
there was a County policy in this regard. In fact, Plaintiffs allege the Individual Defendants “deliberately
chose” to disregard the County’s Psychiatric Discharge
policy. (Pl. Reply to County 28.) This is not evidence of
a policy that was a moving force behind an alleged violation. The Court GRANTS the County’s MSJ for this
claim.
4. PCC Policies (Re: Exposure to Danger
and Adequate Therapy)
Plaintiffs argue the County had a duty to provide
Cassandra with reasonable safety and care once she
was removed from her parents’ custody. (Pl. MSJ 34.)
Plaintiffs argue as a result of the County’s failure to do
so, Cassandra was exposed to danger, and was not provided with adequate therapeutic support. (Id. at 34–
36.) In support, Plaintiffs cite to Tamas, wherein the
Ninth Circuit held
[t]he Fourteenth Amendment substantive due
process clause protects a foster child’s liberty

App. 61
interest in social worker supervision and protection from harm inﬂicted by a foster parent.
Once the state assumes wardship of a child,
the state owes the child, as part of that person’s protected liberty interest, reasonable
safety and minimally adequate care.
630 F.3d at 842 (citing Lipscomb, 962 F.2d at 1379). Defendants argue that there is no authority that placement in an emergency shelter, like Cassandra was,
violates the child’s constitutional rights. (Def. Opp’n
34–35.) Defendants argue Cassandra had no constitutional right to a certain type of therapy, to placement
in a certain room, or to a “higher level of care.” (Id. at
35 (citing Pl. MSJ 35).)
The Court agrees that Cassandra was owed reasonable and adequate care, but the Court ﬁnds that
Plaintiffs have not demonstrated that a constitutional
right has indisputably been violated. The Court ﬁnds
there is an issue of material fact as to whether Cassandra was provided with reasonable and adequate care
while at PCC, and to what that care would entail. The
Court DENIES both Plaintiffs’ and Defendant’s Motion as to this issue.
5. The County’s AWOL Practices
Plaintiffs state the County has deﬁcient policies
on how to handle AWOL events and allows children to
leave PCC and put themselves at risk of harm. (Pl.
MSJ 37.) Plaintiffs state PCC’s

App. 62
AWOL protocol (Notice #35) and a longstanding practice that mandates that only the
child’s assigned social worker, a County employee outside of the walls of PCC and mostly
unavailable and unaware that a child may be
about to AWOL can order a PCC worker to put
his or her hands on an AWOLing child. Neither is effective to prevent a child who wishes
to AWOL from leaving the facility.
(Id. at 38 (citations omitted) (citing ECF No. 126-1,
at 45–49) (Notice #35).) Plaintiffs also state that the
Protocol does not require PCC to notify the minor’s
parents of the AWOL event, (id. at 39–40), and only
involves notiﬁcation of the minor’s social worker which
is usually done through email, (id. at 39).
According to a Notice to PCC staff issued by PCC,
it is acknowledged that “it is difﬁcult to prevent a minor from running away from an unlocked facility like
PCC.” (ECF No. 126-1, at 45.) Staff may “position themselves to block the youth’s AWOL exit route,” “may use
verbal direction to re-direct the youth. Physical restraining behavior should not be used.” And, “staff may
surround the minor in a non-threatening manner and
walk the youth to a safe place to be counseled.” (Id. at
46.) If this is not effective, staff contacts the Duty Ofﬁcer who “will exercise professional judgment to decide
if a standing restraint can be used to prevent the youth
from AWOL.” (Id. at 47.) In some situations, when the
child exhibits “Extraordinary AWOL behavior,” PCC
staff may physically stop the child from leaving the facility. (Id. at 45.) If the minor is exhibiting, among

App. 63
other things, extreme agitated behavior or “concrete
suicidal/homicidal ideation or behavior,” then that minor may be restrained.
The ﬁrst issue is what constitutional right is alleged to be violated by PCC’s policies. Plaintiffs state it
is the “right to be safe and protected in the County’s
custody.” (Pl. Reply 17.) “Once the state assumes wardship of a child, the state owes the child, as part of that
person’s protected liberty interest, reasonable safety
and minimally adequate care and treatment appropriate to the age and circumstances of the child.” Lipscomb, 962 F.3d at 1379. Plaintiffs allege Cassandra’s
right to safety and care was violated due to PCC’s
AWOL policy.
Defendant cites to Wilson v. County of San Diego,
91 Cal. App. 4th 974, 977–78 (Ct. App. 2001), where a
California Court of Appeal held that the County of
San Diego “and its employees did not have a mandatory duty to prevent an adolescent from running away
from Polinsky Children’s Center (Polinsky), where he
was placed after being taken into protective custody.”
Defendants cite to Community Care Licensing restrictions which “prohibit the County from locking all
of the doors at Polinsky” and to California Welfare and
Institutions Code § 206 which “requires dependent
children to be placed in a ‘nonsecure’ facility.” (Def.
Opp’n 39.)
Defendant has convincingly argued that it has no
duty nor legal obligation to lock the children inside
PCC. But, the issue is whether the policies at PCC

App. 64
violated Cassandra’s right to be provided with reasonable safety, in other words, are PCC’s policies sufﬁcient
to provide the constitutional level of care? Even if PCC
could not physically lock the doors, could the policies
be more protective? Although a minor like Cassandra
may not have been exhibiting “concrete suicidal” behavior at the moment she went AWOL, should PCC
policies allow staff to physically restrain a minor based
on her past behavior? The Court ﬁnds that a genuine
issue of material fact exists as to this issue, and a jury
is to determine whether PCC policies regarding AWOL
provided Cassandra with reasonable care and safety.
Because the Court determines there are genuine
issues of material fact, the Court DENIES both Plaintiffs’ and Defendant’s Motions for Summary Judgment
as to this claim. Along the same vein, because a genuine issue of material fact exists as to the issue of the
County’s failure to keep children safe at PCC, the
Court DENIES the County’s Motion for Summary Judgment as to Plaintiff’s allegation that in the County had
a policy, practice, or custom of “[f ]ailing to properly supervise and care for children while within the custody
of COUNTY, and informing parents of their child’s condition and situation, including while at PCC.” (County
MSJ 31; Compl. ¶ 73(l).)

App. 65
C. Plaintiffs’ Second Monell Theory: Inadequate Training and Supervision of Employees
A plaintiff can establish § 1983 liability against a
municipality by showing the failure to train its employees, but only “where the failure to train amounts
to deliberate indifference to the rights of persons with
whom the [employee] come into contact.” City of Canton, 489 U.S. at 388. “Only where a municipality’s
failure to train its employees in a relevant respect evidences a ‘deliberate indifference’ to the rights of its inhabitants can such a shortcoming be properly thought
of as a city ‘policy or custom’ that is actionable under
§ 1983.” Id. The plaintiff “must demonstrate a ‘conscious’ or ‘deliberate’ choice on the part of a municipality in order to prevail on a failure to train claim.” Price
v. Sery, 513 F.3d 962, 973 (9th Cir. 2008).
Plaintiffs attack various allegedly deﬁcient training programs in this regard: (1) the County’s failure to
ensure its social workers receive mandatory training
on exigency; (2) the County’s failure to train on its psychiatric policies; and (3) the County’s insufﬁcient training on safety at PCC. (Pl. MSJ 41–44.)
1. Exigency Training
Plaintiffs state that the County has implemented
trainings for its social workers that train them on
exigency as it relates to the removal of children from
the custody of their parents. (Pl. MSJ 41.) But, Plaintiffs state that although these trainings are deemed

App. 66
“mandatory,” neither Huidor nor McCann attended refresher training courses prior to the removal of the
Garcia children. (Id.) Plaintiffs state that this shows
the County is deliberately indifferent as to whether its
social workers participate in these trainings and there
is no method in place to ensure that the social workers
participate in the training. (Id.)
Defendants argue that evidence that two employees failing to attend a class is insufﬁcient to establish
a deliberately indifferent policy. (Def. Opp’n 41.) Defendants also argue that the there is no evidence the
County was on notice that any omission violated citizens’ constitutional rights. (Id. at 42 (citing Board of
Cnty. Com’rs of Bryan Cnty. v. Brown, 520 U.S. 397, 407
(1997)).) In reply, Plaintiffs respond that the County
has been considering implementing a tracking mechanism to determine whether or not a social worker is
receiving the necessary training for the past ten years,
but has not yet implemented such a system. (Pl. Reply
to County 32 (citing Deposition of County’s Person
Most Knowledgeable Elyce Hoene).) Plaintiffs allege
this longstanding failure amounts to a deliberate
choice on behalf of the County.
The Court ﬁnds there is a genuine issue of material fact as to whether there was a failure by the
County to train its employees on this issue, whether
this alleged failure amounted to deliberate indifference. The Court ﬁnds that summary judgment is not
warranted on this issue, and Plaintiffs’ and the
County’s Motions for Summary Judgment as to this issue are DENIED.

App. 67
2. Psychiatric Policy Training
Plaintiffs allege that McCann and Huidor “had no
training on any of the County’s psychiatric policies
[and] they did not comply with the County’s Psychiatric Hospital Discharge policy when assessing Cassandra and transferring her to PCC.” (Pl. MSJ 42.)
Plaintiffs also allege Salcido had no training on the
County’s psychiatric policies because he did not “visit
[Cassandra] in the hospital within one working day
of admission, on only one occasion did he attend a
treatment team meeting, and he did not plan for an
appropriate placement using a Team Decision-Making
Meeting, as required by the County’s Psychiatric
Hospitalization policy.” (Id. (citing ECF No. 126-1, at
2–9 (psychiatric policies)).) Plaintiffs say this failure
was a moving force behind the violation of “Cassandra’s wrongful removal, in violation of her Fourth and
Sheila’s Fourteenth Amendment rights, and Salcido
and the County’s failure to protect Cassandra’s wellbeing while she was in the County’s custody, in violation of her Fourteenth Amendment rights.” (Id. at 43.)
Defendants argue Plaintiffs have not shown that
their rights were violated or that any violation was
caused by the County’s failure to train its workers on
the policies. (Def. Opp’n 43.) Defendants argue that
Plaintiffs’ allegations, that the social workers did not
comply with set policies, does not constitute a constitutional violation. (Id. at 44.)
Plaintiffs have failed to allege a lack of training on
behalf of the County simply because three people in

App. 68
this case allegedly did not comply with the County’s
policies. There is no evidence the County exerted any
“deliberate indifference” to the need for more or better training for its psychiatric policies. The Court
GRANTS the County’s MSJ for this claim.
3. Safety at PCC Training
Plaintiff argues there is deﬁcient training at PCC
that was a moving force behind violations of the
County’s duty to protect Cassandra’s well-being while
she was in its custody. (Pl. MSJ 44.) Plaintiffs have
taken the depositions of various PCC employees, and
Plaintiffs say the depositions show “PCC employees do
not fully understand what it is they are supposed to be
doing.” (Id. at 43.)
In response, Defendant argues the County conducts training with Polinsky staff on County and PCC
policies and procedures, and on the procedures regarding interacting with children at PCC and preventing
AWOL incidents. (Def. Opp’n 45.) Defendants argue
PCC staff discuss the policies during staff meetings,
and attend biannual refresher courses.
The problem here is that Plaintiffs disagree with
PCC’s policies on children who AWOL; not that PCC
does not train its staff on its policies. Even if every employee had followed PCC’s policies while Cassandra
was AWOLing (the Court does not opine on this one
way or the other), Plaintiffs still would allege, and are
alleging, that Cassandra’s rights have been violated
because she was not stopped from leaving PCC. There

App. 69
is no evidence that PCC failed to train its employees
on its policies, nor of a “conscious” or “deliberate” choice
on the party of the County in failing to train. See
Blankenhorn v. City of Orange, 485 F.3d 463, 484 (9th
Cir. 2007). The Court GRANTS the County’s MSJ as
to this claim.
D. Policy Regarding School Interviews
Plaintiffs allege that in 2013, the County had a
policy, practice, or custom of “[i]nterviewing MINORS
without their parents’ knowledge, consent, and presence, without Court order and without justiﬁcation.”
(Compl. ¶ 73(j).) The ﬁrst issue is whether CNG and
Cassandra’s constitutional rights were violated when
McCann interviewed them (CNG at school and Cassandra at the hospital). Plaintiffs have conceded that
McCann is protected by qualiﬁed immunity for her seizures and interviews of Cassandra and CNG. (Pl.
Opp’n to Individ. 35.) But, Plaintiffs note “this Court
must rule on the constitutionality of McCann’s conduct
for the purposes of Plaintiffs’ Monell claim against the
County of San Diego concerning in-school interviews of
suspected victims of child abuse.” (Id.)
1. Constitutionality of the Seizures
To succeed on their Fourth Amendment claim,
Plaintiffs must show that a seizure occurred and that
the seizure was unreasonable. A seizure occurs when,
in light of all the circumstances, a reasonable person
would have believed that he or she was not free to

App. 70
leave. Jones v. Cnty. of Los Angeles, 802 F.3d 990, 1000–
01 (9th Cir. 2015) (citing United States v. Mendenhall, 446 U.S. 544, 554 (1980)). “The Ninth Circuit
has identified five factors that aid in determining
whether a person’s liberty has been so restrained.”
United States v. Brown, 563 F.3d 410, 415 (9th Cir.
2009). Those factors are “(1) the number of officers;
(2) whether weapons were displayed; (3) whether the
encounter occurred in a public or non-public setting;
(4) whether the ofﬁcer’s authoritative manner would
imply that compliance would be compelled; and (4)
whether the ofﬁcers advised the detainee of his right
to terminate the encounter.” Id.
As another court in this district has held: “These
factors do not ﬁt neatly into the context of a child interviewed by a social worker during a child abuse investigation. Because whether a seizure occurs depends
on the totality of circumstances, the Court also considers [the child’s] age, education, mental development,
and familiarity with the interview process.” Dees v.
Cnty. of San Diego, No. 14-cv-189-BEN-DHB, 2017 WL
4511003, at *6 (S.D. Cal. Oct. 10, 2017). The Court concurs and adopts those factors here.
a. Interview of CNG
On January 28, 2013, McCann went to CNG’s
school, Thurgood Marshall Elementary School, and
asked the staff to allow her to interview CNG.
(McCann Decl. ¶ 12.) CNG was 10 years old. She met
with McCann alone with no one else present. McCann

App. 71
states she told CNG she could have someone else present with her, but CNG declined (Id.) McCann told
CNG she could leave at any time, (id.), but Plaintiffs
state CNG was never told she did not have to meet
with McCann in the ﬁrst place, (Pl. Reply 32). Indeed,
CNG states she was given a note that said “Go to the
principal’s ofﬁce” and she left class and met McCann.
(“CNG Depo.,” ECF No. 127, at 63). CNG remembers
McCann being nice and not rude. (Id. at 64.) McCann
states the interview lasted ﬁfteen minutes; CNG believes it lasted longer than this but does not remember.
(Id.)
Naturally, Plaintiffs cite to Dees, where Judge Benitez found that McCann seized another minor child
when she interviewed her at school. 2017 WL 4511003,
at *6 (“A reasonable nine-year-old child who is called
out of class by school ofﬁcials for the purpose of meeting with a social worker who has already disturbed the
child’s family life, and who is not advised that she may
refuse to speak with the social worker, will feel compelled to talk to the social worker and remain there
until dismissed.”).
Here, unlike in Dees, CNG had never met McCann
previously nor is there any indication she had any experience with social workers. But, similar to Dees,
there is evidence that CNG felt compelled to speak
with McCann; she was “pulled out of class,” McCann
told her “I’m going to ask you a few questions,” and she
does not remember McCann telling her she could stop
talking to her at any time. (CNG Depo. 63–64.) The
Court ﬁnds that a seizure occurred; a reasonable child

App. 72
in CNG’s position would have believed that she was not
free to leave. Jones, 802 F.3d at 1000–01. But, the seizure must have been unreasonable for CNG’s Fourth
Amendment right to have been violated.
As Judge Benitez noted, “[n]either the Supreme
Court nor the Ninth Circuit has decided what reasonableness standard applies to seizures of children at
school during child abuse investigations.” Dees, 2017
WL 4511003, at *7. After analyzing relevant authority,
Judge Benitez concluded “McCann needed a warrant,
court order, parental consent, exigency, or at the very
least, reasonable suspicion to seize and interview [the
minor].” Id.; see Greene, 588 F.3d at 1027 (holding the
seizure of a nine-year-old child “in the absence of a warrant, a court order, exigent circumstances, or parental
consent was unconstitutional”). In this case, there
was no warrant, court order, or parental consent for
McCann to interview CNG. But, in contrast to Dees,
here, McCann had reasonable suspicion that CNG was
the subject of child abuse or sexual misconduct. See
Terry v. Ohio, 392 U.S. 1, 19–27 (1968) (holding that an
ofﬁcer’s reasonable suspicion of criminal activity may
justify a brief investigatory detention); Dees, 2017 WL
2017 WL 4511003, at *7 n.2 (the court “assume[d],
without deciding, that a seizure could be reasonable if
the social worker had reasonable suspicion that the
child was the victim of child abuse and neglect”). The
Court ﬁnds that such a suspicion should be taken into
consideration when determining the reasonableness of
a seizure. McCann had met with Cassandra who allegedly disclosed to McCann the incident with Rudy, and

App. 73
McCann had been informed that Cassandra began
“sobbing hysterically” when asked if Rudy had touched
her sisters inappropriately. (McCann Decl. ¶ 11.) It is
reasonable to infer that CNG may have been subjected
to inappropriate touching, like McCann believed Cassandra had been. Therefore, because of this reasonable
suspicion, the Court ﬁnds McCann did not violate
CNG’s Fourth Amendment rights by brieﬂy interviewing CNG at school.13
b. Interview of Cassandra
On January 28, 2013 McCann interviewed Cassandra while in the hospital, while accompanied by Detective Heizmann. The Court again ﬁnds a seizure
occurred; not only was McCann conducting the interview, but a police detective was present as well. Further, it is clear Cassandra was emotionally vulnerable
and in a troubled state at the time, separated from her
family, and had recently threatened to commit suicide.
It would be reasonable to assume she did not feel free
to end the interview. However, the Court ﬁnds it was
not an unreasonable seizure, for the same reasons articulated above as to CNG. McCann had a reasonable
suspicion, through a documented report submitted by
13

This ﬁnding does not contradict the Court’s earlier ﬁnding
regarding exigency. Here, the Court ﬁnds it was reasonable for
McCann to think the Garcia children may have been subjected to
sexual misconduct by their parent. This does not mean that the
Court ﬁnds it was reasonable for McCann to remove the children
without a warrant; this issue still presents a genuine issue of material fact.

App. 74
a hospital social worker, that Cassandra was a victim
of sexual abuse. Therefore, the Court ﬁnds McCann did
not violate Cassandra’s Fourth Amendment rights by
interviewing Cassandra at the hospital.
The Court GRANTS Individual Defendants’ Motion for Summary Judgment as it relates to Plaintiff ’s
claim of violation of Cassandra and CNG’s Fourth
Amendment rights due to unreasonable seizures. Because the Court ﬁnds no constitutional violation, the
Court likewise GRANTS the County’s Motion for
Summary Judgment as it relates to Plaintiffs’ allegation that the County had a policy of conducting unlawful school interviews. (County MSJ 28.)
E. The Remainder of the County’s MSJ
The majority of the issues in the County’s MSJ
have been addressed above, but the Court addresses
any allegations identiﬁed by the County in its Motion.
1. Coercive/Intimidating Conduct
The County moves for summary judgment as to
Plaintiffs’ allegation that in 2013, the County had a
policy, practice, or custom of “[u]sing coercive, intimidating, abusive, demeaning, and improper conduct during their investigation of Plaintiffs, including using the
threat of removal of the MINORS when no basis for
removal was present.” (County MSJ 9; Compl. ¶ 73(a).)
Plaintiffs no longer assert this claim. (Pl. Opp’n to

App. 75
County 6.) The Court GRANTS Defendant’s MSJ as to
this claim.
2. Evidence Fabrication
The County moves for summary judgment as to
Plaintiffs’ allegation that in 2013, the County had a
policy, practice, or custom of “[f ]abricating, or failing to
provide exculpatory evidence, in report requests for
court orders with the intent of violating the rights of
the Plaintiffs.” (County MSJ 11; Compl. ¶ 73(c).) The
Court analyzes this with two similar allegations, of
which the County also moves for summary judgment.
The County moves for summary judgment as to Plaintiffs’ allegation that in 2013, the County had a policy,
practice, or custom of “[u]sing trickery, duress, fabrication and/or false testimony or evidence, and in failing
to provide exculpatory evidence in preparing and presenting reports and court documents to the Court.”
(County MSJ 13; Compl. ¶ 73(e).) Finally, the County
also moves for summary judgment as to Plaintiffs’ allegation that in 2013, the County had a policy, practice,
or custom of “[s]igning and presenting petitions in dependency actions under the penalty of perjury without
personal knowledge of the truth and/or accuracy of the
allegations contained therein.” (County MSJ 13;
Compl. ¶ 73(g).) In response, Plaintiffs state that when
the County’s Person Most Knowledgeable (“PMK”) Elyce Hoene was asked to identify a policy that social
workers must be honest and submit accurate reports,
she “thought” that the issue was covered by the code of
ethics. (Pl. Opp’n to County 28.) Plaintiffs state this is

App. 76
proof there is no policy regarding honesty and against
fabrication. In reply, the County cites to the Social
Worker Code of Ethics, which states the County strives
to “help SWs [Social Workers] maintain high standards
of personal conduct in the capacity or identity of social
worker,” and that Workers shall “[n]ot engage in any
action that would violate or diminish the civil or legal
rights of clients.” (County Reply 15.)
The Court ﬁnds that there is no genuine issue of
material fact that there is no policy that was a moving
force behind the alleged violation of Plaintiffs’ rights.
Even if McCann did fabricate evidence, and even if the
County’s PMK could not point to a policy that encourages honesty, this does not mean the opposite is true,
namely that there is a policy that encourages fabrication. Plaintiffs have presented no question of material
fact as to whether the County has a policy of custom
that encourages dishonesty. The Court ﬁnds there is no
policy that would create municipal liability for the
County. The Court GRANTS the County’s MSJ as to
these three claims, (Compl. ¶ 73(c), (e), and (h)).
3. Removal from Custody
The County moves for summary judgment as to
Plaintiffs’ allegation that in 2013, the County had a
policy, practice, or custom of “[c]ausing minor children
to be dependents of the County, and continuing to
be dependents; thus removing their legal and physical custody from their parents beyond a reasonable
period after the basis for such removal is negated.”

App. 77
(County MSJ 12; Compl. ¶ 73(d).) Plaintiffs no longer
assert this claim. (Pl. Opp’n to County 6.) The Court
GRANTS the County’s MSJ as to this claim.
4. Intimidation
The County moves for summary judgment as to
Plaintiffs’ allegation that in 2013, the County had a
policy, practice, or custom of “[u]sing intimidation, fear,
threats, coercion, retaliation, misrepresentation and
duress during their investigation of allegations of child
abuse and/or neglect, and during the pendency of dependency proceedings.” (County MSJ 14; Compl.
¶ 73(h).) Plaintiffs no longer assert this claim. (Pl.
Opp’n to County 6.) The Court GRANTS the County’s
MSJ as to this claim.
5. Discipline of Employees
The County moves for summary judgment as to
Plaintiffs’ allegation that the County has acted with
deliberate indifference in “failing to correct the wrongful conduct of other employees” who perform actions
related to child welfare services. (County MSJ 34;
Compl. ¶ 73(n).)
Plaintiffs argue that Huidor, Palafox and Quintanilla, as supervisors, “adopted a uniform disregard of
the known and/or obvious consequences of the actions
of their social workers.” (Pl. Opp’n to County 33.) Plaintiffs state that none of the Defendants were counseled
or disciplined in any way for their actions related to

App. 78
this matter. (Id. at 34 (citing to deposition of Michelle
Deitrich, the County’s PMK concerning discipline).)
In response, Defendants argue that Plaintiffs have
not proven a violation under the ratiﬁcation theory,
which requires them to show the “authorized policymakers approve[d] a subordinate’s decision and the basis for it.” Christie v. Iopa, 176 F.3d 1231, 1238–39 (9th
Cir. 1999). Ratiﬁcation requires, “among other things,
knowledge of the alleged constitutional violation.” Id.
“Neither a policymaker’s mere knowledge of, nor the
policymaker’s mere refusal to overrule or discipline, a
subordinate’s unconstitutional act suffices to show
ratiﬁcation.” Rabinovitz v. City of Los Angeles, 287
F. Supp. 3d 933, 967–68 (C.D. Cal. 2018) (citing Christie, 176 F.3d at 1239). (County Reply 19.)
Plaintiffs have presented no evidence that the supervisors knew of the basis for the alleged constitutional violations and authorized the decisions. Even if
Plaintiffs prove the underlying constitutional violations, Plaintiffs have only alleged the supervisors had
knowledge of the violations but did not overrule or discipline the social workers. (See Pl. Opp’n to Individ. 34–
35.) This is insufﬁcient to show ratiﬁcation. The Court
GRANTS the County’s MSJ as to this claim.
III. Individual Defendants’ MSJ
The majority of the issues in the Individual Defendants’ MSJ are covered above. The Court addresses
the remaining issues.

App. 79
A. Defendant Walsh
Defendant Srisuda Walsh works for CPS and approved the Risk and Safety Assessment forms completed by McCann on January 30, 2013. (Pl. Opp’n to
Individ. 23.) Defendants argue Defendant Walsh was
not actively involved in this case: “She was not in the
ofﬁce on the day of the removal, made no decisions regarding the removal, did not review or approve any
court reports, and was not involved after the dependency case began. Her only possible involvement was to
approve two forms that McCann ﬁlled out.” (Individuals MSJ 29.) Plaintiffs do not appear to contest that
this was Walsh’s only involvement in this case and only
refer to Walsh’s approval of the forms in their response.
(Pl. Opp’n to Individ. 23–24.)
Plaintiffs respond by pointing to the alleged inaccuracies in the forms McCann ﬁlled out, and stating
Walsh “simply approved” the forms rather than question McCann. (Id. at 24.) Plaintiffs state the forms
were rubber-stamped by Walsh who “ignored her duties and responsibilities and allowed McCann to do
whatever she pleased without supervision or oversight.” (Id.) Plaintiffs cite to Boyd v. Benton County,
374 F.3d 773, 780 (9th Cir. 2004), where the Ninth Circuit held that a group of individuals can be liable if
each is an “integral participant” in the violation. There,
although one ofﬁcer deployed a ﬂash-bang (which was
a Fourth Amendment violation), the other ofﬁcers “participated in some meaningful way” because they were
aware of the decision to use the ﬂash-bang, did not

App. 80
object to it, and “participated in the search operation
knowing the ﬂash-bang was to be deployed.” Id.
Boyd was distinguished by another district court
in Monteilh v. County of Los Angeles, 820 F. Supp. 2d
1081, 1090 (C. D. Cal. 2011). There, similar to the present case, a child was removed from his home by a social worker in alleged violation of his constitutional
rights. The issue was whether the ofﬁcers that were
present could be held liable for the violation. The ofﬁcers “stood outside Plaintiff ’s home, behind the social
workers, armed, and in full uniform” but the court held
that their presence “is insufﬁcient to establish integral
participation if the Ofﬁcers have no knowledge of or
reason to know of an unlawful act.” Id. The ofﬁcers
were never given a reason to believe that the social
workers did not have authority to remove the child and
no reason to believe there were no exigent circumstances.
Here, Walsh was not present at the removal and
her only involvement was reviewing forms ﬁlled out by
McCann. This case can therefore be distinguished from
Boyd where the ofﬁcers acted as a team and carried out
a preplanned search operation. 374 F.3d at 777. Before
the search, the ofﬁcers “gathered for a brieﬁng” and
“discussed various circumstances surrounding the operation.” Id. Only after this collective discussion did
the supervising sergeant make the ultimate decision to
use a flash-bang device. Id. In contrast, no facts in
this case suggest that Walsh was privy to any discussions, briefings, or collective decisions made by the
other social workers. Even assuming all of Plaintiffs’

App. 81
allegations were true (i.e., that McCann ﬁlled out the
forms inaccurately and removed the children without
exigency, (see Pl. Opp’n to Individ. 23)), Walsh had no
reason to know that this was so and had no knowledge
of the circumstances before McCann made the decision. Approving a form does not make someone an integral participant. The Court GRANTS Defendants’
Motion for Summary Judgment regarding Plaintiffs’
claims against Defendant Walsh. Defendant Walsh is
no longer a part of this case.
B. Judicial Deception
Plaintiffs argue “[h]ad Salcido, Palafox and Quintanilla complied with their duty and obligation to investigate and corroborate the allegations made by
McCann and Huidor, they ‘would have known [these
statements] were false had [they] not recklessly disregarded the truth.’ ” (Pl. Opp’n to Individ. 39 (quoting
Hardwick v. Cnty. of Orange, 844 F.3d 1112, 1118 (9th
Cir. 2017)).) Plaintiffs state these three Defendants
“continued to report the falsehoods included in
McCann and Huidor’s Petitions and Detention Report,
speciﬁcally repeating, verbatim, the totally false statements made by McCann in the Petitions.” (Id. at 38.)
There is no allegation that these three Defendants
made any false statements or omissions; the only allegation is that they should have been better supervisors
and/or investigators of McCann’s statements. There is
no allegation that they “repeated” falsehoods from
McCann intentionally. This is insufﬁcient to establish
judicial deception. The Court GRANTS Defendants’

App. 82
Motion for Summary Judgment as to judicial deception
as to Salcido, Palafox, and Quintanilla. This removes
Defendants Palafox and Quintanilla from the case.
C. Waiver
Defendants argue Plaintiffs waived challenges to
Defendants’ post-removal conduct by not objecting in
state court. (Individuals MSJ 37.) In January 2013, a
juvenile dependency action was ﬁled and pursued in
juvenile court. At the hearing on January 31, 2013,
Plaintiffs were represented by attorneys but “did not
challenge the Agency’s recommendation that the children remain outside the home, nor did they crossexamine Ms. McCann, call any witnesses, or present
any other evidence. Later in the juvenile dependency
action, Plaintiffs did not present evidence, raise any
claims regarding ‘false or fabricated evidence,’ or
challenge the Agency’s recommendation that the
court take jurisdiction over the children. Instead,
Plaintiffs waived their rights to challenge the juvenile
court’s orders, including its detention orders.” (Individuals MSJ 37.) Indeed, Sheila executed a “Waiver of
Rights” wherein she stated she wished to “submit the
petition on the basis of the social worker’s . . . report
and other documents.” (ECF No. 127, at 83.) This form
noted that she was giving up certain rights.
In response, Plaintiffs state Defendants are arguing that Plaintiffs’ claims are barred by the RookerFeldman doctrine. (Pl. Opp’n to Individ. 43); see D.C.
Court of Appeals v. Feldman, 460 U.S. 462 (1983);

App. 83
Rooker v. Fidelity Trust Co., 263 U.S. 413 (1923). Under
this doctrine, federal district courts may not exercise
appellate jurisdiction over state court decisions even
when the challenge to the state court decision involves
federal constitutional issues. Noel v. Hall, 341 F.3d
1148, 1163–64 (9th Cir. 2003) (holding that RookerFeldman doctrine applies “[i]f a federal plaintiff asserts as a legal wrong an allegedly erroneous decision
by a state court, and seeks relief from a state court
judgment based on that decision”). Plaintiffs argue
they are not appealing the Juvenile Court orders and
thus their claims are not barred by Rooker-Feldman.
The Court agrees, but, Plaintiffs have not addressed
the entirety of Defendants’ arguments. The Court must
analyze whether Plaintiffs waived their right to make
certain challenges due to their actions in the juvenile
court proceedings (i.e., by not objecting and ﬁling a
waiver).
Signing a waiver of rights is not the same as agreeing to the allegations of the petition. It merely means
that the party does not wish to present evidence at the
hearing and is willing to have the juvenile court decide
the issues based on the social worker’s reports and
other information already presented to the court. Rosa
S. v. Superior Court, 100 Cal. App. 4th 1181, 1196 (Ct.
App. 2002). When a party submits to the ﬁndings, “the
parent acquiesces as to the state of the evidence yet
preserves the right to challenge it as insufﬁcient to
support a particular legal conclusion. Thus, the parent
does not waive for appellate purposes his or her right
to challenge the propriety of the court’s orders.” In re

App. 84
Richard K., 25 Cal. App. 4th 580, 589 (Ct. App. 1994)
(internal citations omitted). California Rules of Court
provide a parent has options in this situation: “The
parent or guardian may elect to admit the allegations
of the petition or plead no contest and waive further
jurisdictional hearing. The parent or guardian may
elect to submit the jurisdictional determination to the
court based on the information provided to the court
and choose whether to waive further jurisdictional
hearing.” Cal. Rules of Court 4.682(d). The rules further provide that a parent “submits to the jurisdictional determination in writing” by completing form
JV-190, as Sheila did here. After this submission, the
court must still make a ﬁnding “[w]hether the allegations of the petition as submitted are true as alleged.”
Cal. Rules of Court 4.682(e)(8).
Sheila’s execution of JV-190 does not constitute a
waiver of her rights to challenge the social workers’ evidence and statements, nor an admission that the petition was true. The form only precluded her from
presenting evidence at the juvenile court hearing. The
Court DENIES Individual Defendants’ Motion for
Summary Judgment on the claim of waiver.
D. Injunctive Relief
Defendants move for summary judgment on Plaintiffs’ claim for injunctive relief. (Individuals MSJ 47.)
Plaintiffs respond that they do not request injunctive
relief against the Individual Defendants. (Pl. Opp’n
to Individ. 47.) The Court GRANTS the Individual

App. 85
Defendants’ Motion for Summary Judgment for the
claim of injunctive relief.
E. Punitive Damages
Plaintiffs’ Complaint includes a prayer for punitive damages as against the Individual Defendants.
(Compl. at 33.) Individual Defendants request the
Court to enter summary judgment on this claim because Plaintiffs cannot prove punitive damages. (Individuals MSJ 48.) As set forth in the Ninth Circuit jury
instructions, punitive damages may be awarded if “the
defendant’s conduct that harmed the plaintiff was malicious, oppressive or in reckless disregard of the plaintiff ’s rights.”
The Court has found herein that Defendants
Walsh, Palafox, and Quintanilla should be dismissed
from this suit. Accordingly, the Court GRANTS Plaintiffs’ request for punitive damages as to these three
Defendants. Because the Court ﬁnds in this order that
Defendants McCann, Huidor, and Salcido are not entitled to summary judgment on all of Plaintiffs’ claims,
the Court ﬁnds summary judgment is likewise inappropriate on Plaintiffs’ prayer for punitive damages.
Accordingly, the Court DENIES Individual Defendants’ Motion for Summary Judgment as to Plaintiffs’
request for punitive damages against Defendants
McCann, Huidor, and Salcido.

App. 86
CONCLUSION
For the foregoing reasons, the Court rules as follows. First, the Court DENIES IN FULL Plaintiffs’
Motion for Summary Judgment, except:
1.

The Court defers ruling on the claims regarding examinations of the children at PCC.

The Court GRANTS the County’s Motion for Summary Judgment as to:
1.

Plaintiffs’ claims regarding the County’s training on safety at PCC;

2.

Plaintiffs’ claims they are no longer asserting
(i.e., Coercive Conduct, Compl. ¶ 73(a); Removal from Custody, Compl. ¶73(d); and Intimidation, Compl. ¶ 73(h));

3.

Plaintiffs’ claims regarding policies of evidence fabrication and perjury, (Compl. ¶ 73(c),
(e), and (g));

4.

Plaintiffs’ claims regarding a policy of conducting unconstitutional school interviews,
(Compl. ¶ 73(j));

5.

Plaintiffs’ claims regarding policies of failing
to notify parents, (Compl. ¶ 73(k));

6.

Plaintiffs’ claims regarding discipline of social
workers, (Compl ¶ 73(n)).

The Court DENIES the remainder of the Motion.

App. 87
The Court GRANTS Individual Defendants’ Motion for Summary Judgment as to:
1.

Plaintiffs’ claim of violation of Cassandra and
CNG’s Fourth Amendment rights due to unreasonable seizures;

2.

Plaintiffs’ claims against Defendants Walsh,
Quintanilla, and Palafox;

3.

Plaintiffs’ claim of judicial deception against
Defendant Salcido;

4.

Plaintiffs’ state law claims.

5.

Plaintiffs’ request for injunctive relief.

The Court DENIES the remainder of the Motion.
IT IS SO ORDERED.
Dated: June 18, 2018 /s/ Janis L. Sammartino
Hon. Janis L. Sammartino
United Sates District Judge

App. 88
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF CALIFORNIA
SHEILA GARCIA,
CASSANDRA GARCIA,
C.N.G., a minor, and C.J.G.,
a minor, by and through
their Guardian Ad Litem,
DONALD WALKER

Case No.:
15-CV-189 JLS (NLS)

ORDER DENYING
DEFENDANTS CAITLIN
MCCANN, GLORIA
ESCAMILLA-HUIDOR,
Plaintiffs,
AND JESUS SALCIDO’S
MOTION FOR RECONv.
SIDERATION OF THE
COUNTY OF SAN DIEGO, COURT’S DENIAL OF
SAN DIEGO HEALTH
QUALIFIED IMMUNITY
AND HUMAN SERVICES
(Filed Dec. 5, 2018)
AGENCY, POLINKSY
CHILDREN’S CENTER, (ECF No. 172)
CAITLIN MCCANN,
GLORIA ESCAMILLAHUIDOR, SRISUDA
WALSH, JESUS SALCIDO,
MARTHA PALAFOX,
LAURA QUINTANILLA,
and Does 1 through 10,
inclusive,
Defendants.
Presently before the Court is Defendants Caitlin
McCann, Gloria Escamilla-Huidor, and Jesus Salcido’s
(the “Moving Defendants”) Motion for Reconsideration
of the Court’s Denial of Qualiﬁed Immunity (“Mot.,”
ECF No. 172). Also before the Court are Plaintiffs
Sheila Garcia, Cassandra Garcia, C.N.G., and C.J.G.’s

App. 89
Opposition to (“Opp’n,” ECF No. 175) and the Moving
Defendants’ Reply in Support of (“Reply,” ECF No. 177)
the Motion. The Court vacated the hearing on the Motion and took the matter under submission without
oral argument. ECF No. 176. Having considered the
Parties’ arguments, the facts, and the law, the Court
DENIES the Moving Defendants’ Motion.
BACKGROUND
The Court incorporates by reference the factual
background as laid out in the underlying Order:
(1) Denying Plaintiffs’ Motion for Summary Judgment;
(2) Granting in Part and Denying in Part County of San
Diego’s Motion for Summary Judgment; and (3) Granting in Part and Denying in Part Individual Defendants’
Motion for Summary Judgment. See ECF No. 167 at 27.
Procedurally, on June 18, 2018, the Court ruled as
to Defendants McCann and Huidor that, “[b]ecause the
Court has determined the issue of whether the social
workers’ beliefs and actions were reasonable involves
disputed issues of material fact, the Court does not
make a qualiﬁed immunity determination here.” Id. at
16 n.9 (citing Wilkins v. City of Oakland, 350 F.3d 949,
956 (9th Cir. 2003); Santos v. Gates, 287 F.3d 846, 855
n.12 (9th Cir. 2002)). As for Defendant Salcido, the
Court similarly concluded that, “[b]ecause the issue of
whether Salcido’s conduct arose to the level of a constitutional violation is a question for the jury, an analysis
of qualiﬁed immunity is premature.” Id. at 23 n.11. The

App. 90
Moving Defendants ﬁled the instant Motion for reconsideration of the Court’s denial of qualiﬁed immunity
on July 16, 2018. See generally ECF No. 172.
LEGAL STANDARD
Federal Rule of Civil Procedure 59(e) permits a
party to move a court to alter or amend its judgment.
In the Southern District of California, a party may apply for reconsideration “[w]henever any motion or any
application or petition for any order or other relief has
been made to any judge and has been refused in whole
or in part.” Civ. L.R. 7.1(i)(1). The moving party must
provide an afﬁdavit setting forth, inter alia, new or different facts and circumstances which previously did
not exist. Id.
“A district court may grant a Rule 59(e) motion if
it ‘is presented with newly discovered evidence, committed clear error, or if there is an intervening change
in the controlling law.’ ” Wood v. Ryan, 759 F.3d 1117,
1121 (9th Cir. 2014) (internal quotation marks omitted) (quoting McDowell v. Calderon, 197 F.3d 1253,
1255 (9th Cir. 1999) (en Banc)) (emphasis in original).
Reconsideration is an “extraordinary remedy, to be
used sparingly in the interests of ﬁnality and conservation of judicial resources.” Kona Enters., Inc. v. Estate
of Bishop, 229 F.3d 877, 890 (9th Cir. 2000). Ultimately,
whether to grant or deny a motion for reconsideration
is in the “sound discretion” of the district court. Navajo
Nation v. Norris, 331 F.3d 1041, 1046 (9th Cir. 2003)
(citing Kona Enters., 229 F.3d at 883). A party may not

App. 91
raise new arguments or present new evidence if it
could have reasonably raised them earlier. Kona Enters., 229 F.3d at 890 (citing 389 Orange St. Partners v.
Arnold, 179 F.3d 656, 665 (9th Cir. 1999)).
ANALYSIS
“The doctrine of qualiﬁed immunity protects government ofﬁcials from liability for civil damages insofar as their conduct does not violate clearly established
statutory or constitutional rights of which a reasonable
person would have known.” Demaree v. Pederson, 887
F.3d 870, 878 (9th Cir. 2018) (quoting Pearson v. Callahan, 555 U.S. 223, 231 (2009)). Courts “use a two-step
test to evaluate claims of qualiﬁed immunity, under
which summary judgment is improper if, resolving all
disputes of fact and credibility in favor of the party asserting the injury, (1) the facts adduced show that the
ofﬁcer’s conduct violated a constitutional right, and
(2) that right was clearly established at the time of the
violation.” Demaree, 887 F.3d at 878 (quoting Kirkpatrick v. Cnty. of Washoe, 843 F.3d 784, 788 (9th Cir. 2016)
(en Banc)) (internal quotation marks omitted).
Here, the Moving Defendants contend that the
Court committed clear error, thus allowing reconsideration under Rule 59(e), by deferring the ruling on qualiﬁed immunity for Plaintiff ’s Section 1983 claims due
to the presence of disputed issues of material fact. See,
e.g., Mot. at 1-3. The Court disagrees. The Ninth Circuit has made clear that “[c]ourts should decide issues
of qualified immunity as early in the proceedings as

App. 92
possible, but when the answer depends on genuinely
disputed issues of material fact, the court must submit
the fact-related issues to the jury.” Ortega v. O’Connor,
146 F.3d 1149, 1154 (9th Cir. 1998) (emphasis added)
(citing Liston v. Cnty. of Riverside, 120 F.3d 965, 975
(9th Cir. 1997); Act Up!/Portland v. Bagley, 988 F.2d
868, 873 (9th Cir. 1993)). Such is the case here, where
the Court determined that genuinely disputed issues
of material fact remained as to whether Defendants
McCann and Huidor had reasonable cause to believe
that any of the Garcia children were in imminent danger of serious bodily injury and that the scope of the
intrusion was reasonable necessary to avert that injury. See ECF No. 167 at 9-16. As to Defendant Salcido,
the Court concluded that genuinely disputed issues of
material fact remained as to whether he “acted in a
manner so intentional and offensive as to shock the
conscience.” Id. at 23 & n.11.
The Court therefore DENIES the Moving Defendant’s request for reconsideration. Even if the Court
were to reconsider its prior Order, however, the Court
would conclude on the current record and the state of
the law as of January 28, 2013, that the Moving Defendants are not entitled to qualiﬁed immunity, for the
reasons set forth below.
I.

Defendants McCann and Huidor

Two claims against Defendants McCann and Huidor arising under Section 1983 are at issue for purposes of this Motion: (1) violation of Plaintiffs’ Fourth

App. 93
and Fourteenth Amendment rights for removing the
Garcia children without a warrant or exigency, and
(2) violation of Sheila and Cassandra’s Fourteenth
Amendment rights to make medical treatment decisions for Cassandra. The Moving Defendants argue
that, “[e]ven assuming that the facts, taken in the light
most favorable to Plaintiffs, allege a violation of [their]
rights, Plaintiffs’ rights were not clearly established.”
Mot. at 7; see also id. at 15. The Moving Defendants
therefore appear to concede that, at least as to Defendants McCann and Huidor, when the facts are viewed
most favorable to Plaintiffs, Plaintiffs have alleged a
violation of their constitutional rights.1

1

On this record, the Court would have to agree that, taking
the facts most favorably to Plaintiffs, Plaintiffs have adequately
shown that Defendants McCann and Huidor violated Plaintiffs’
constitutional rights. As to the claim concerning the removal of
the Garcia children, resolving all factual disputes in favor of
Plaintiffs, on January 22, 2013, Cassandra reported a single, mistaken sexual assault that occurred on approximately October 17,
2012, when her father allegedly mistook her for her mother,
groped Cassandra in a dark room, and took a photograph. Pls.’
Ex. 10, ECF No. 125-9, at 82:12-24, 101:9-20, 102:19-23, 117:1121, 132:8-25, 139:8-19, 151:8-13; see also Decl. of Cassandra Garcia, ECF No. 148-3, TT 5-6. The referral provided for an evaluation within ten days, see Pls.’ Ex. 37A, ECF No. 125-36, the least
emergent response time in assigning a case. Pls.’ Ex. 26, ECF No.
125-25, at 200:16-19. Although assigned to the case on January
23, 2013, id. at 144:19-21, Defendant McCann elected to take no
action until January 28, 2013, ﬁve days later. Id. at 169:19-23.
Defendant Huidor was Defendant McCann’s supervisor. Id. at
244:14-18. During Defendant McCann’s investigation, there were
no allegations of other sexual assaults involving Cassandra, no
allegations concerning any sexual assaults related to the other
Garcia children, and no indications of any physical abuse of any

App. 94
The issue, therefore, is whether the rights that
Plaintiffs claim Defendants McCann and Huidor violated were clearly established as of January 28, 2013,

of the Garcia children. See Pls.’ Ex. 7 at 209:2-210:5, 218:20-6;
Pls.’ Ex. 26 at 269:7-14. Under these facts, there was no exigency
allowing for warrantless removal of the Garcia children. See, e.g.,
Rogers v. Cnty. of San Joaquin, 487 F.3d 1288, 1294-96 (9th Cir.
2007) (holding that delayed warrantless removal of children from
home on allegations of insufﬁcient medical treatment and unsafe
home conditions was a constitutional violation); Maim v. San Bernardino Cnty., 237 F.3d 1101, 1106-09 (9th Cir. 2001) (reversing
district court and concluding that reasonably jury could conclude
that constitutional rights were violated where social worker delayed in removing fourteen-year-old from custody of her parents
without a warrant on allegations that stepfather had been sexually molesting the girl every other night for several months).
Similarly, as to the claim concerning Sheila’s and Cassandra’s rights to make medical treatment decisions, Plaintiffs have
alleged (and introduced evidence to support) that Defendants
McCann and Huidor disregarded the decision of Sheila and Cassandra – made on the advice of Cassandra’s physician, Dr.
Juboori – that Cassandra be discharged on January 28, 2013, to
Project Oz for intensive inpatient therapeutic treatment, instead
taking Cassandra to PCC, which was primarily designed as a
shelter as opposed to a treatment center. See Pls.’ Ex. 15 at 77:1825; Pls.’ Ex. 17 at 40:14-24; Pls.’ Ex. 25 at 124:17-125:25. There is
no indication that Sheila was abusing or neglecting Cassandra or
that Sheila’s decision to have Cassandra treated at Project Oz was
not in Cassandra’s the best interest. Resolving all factual disputes
in favor of Plaintiffs, Defendants McCann and Huidor therefore
violated Sheila’s and Cassandra’s rights to have Sheila make
medical treatment decisions for her daughter. See, e.g., Wallis v.
Spencer, 202 F.3d 1126, 1141-42 (9th Cir. 2000) (concluding genuine issues of material fact existed as to constitutional violation
where the plaintiffs alleged that, after removal from their parents, children were subjected to physical examinations without
the consent or presence of their parents).

App. 95
when the alleged constitutional violations occurred.
The Court concludes that they were.
A. Removal of the Garcia Children
The Moving Defendants ﬁrst argue that Defendants McCann and Huidor are entitled to qualiﬁed immunity because it was not clearly established that
removing the Garcia children without a warrant was
unlawful on the facts of this case. See Mot. at 7-10.
Based on precedent from the United States Supreme
Court, the Ninth Circuit has long recognized that
“[g]overnment ofﬁcials are required to obtain prior judicial authorization before intruding on a parent’s custody of her child unless they possess information at the
time of the seizure that establishes ‘reasonable cause
to believe that the child is in imminent danger of serious bodily injury and that the scope of the intrusion is
reasonably necessary to avert that speciﬁc injury.’ ”
Mabe, 237 F.3d at 1106-07 (quoting Wallis, 202 F.3d
at 1138 (citing Mincey v. Arizona, 437 U.S. 385, 393
(1978))).
Not surprisingly, the Moving Defendants make
much of White v. Pauly, 580 U.S. 137 S. Ct. 548 (2017),
in which the United States Supreme Court “reiterate[d] the longstanding principle that ‘clearly established law’ should not be deﬁned ‘at a high level of
generality,’ ” id. at 552 (quoting Ashcroft v. al-Kidd, 563
U.S. 731, 742 (2011)), and “must be ‘particularized’ to
the facts of the case.” Id. (quoting Anderson v. Creighton,
483 U.S. 635, 640 (1987)); see also Mot. at 10-11. The

App. 96
Supreme Court, however, “do[es] not require a case directly on point.” White, 137 S. Ct. at 551 (quoting Mullenix v. Luna, 577 U.S. at 136 S. Ct. 305, 308 (2015))
(internal quotation marks omitted). Instead, “existing
precedent must have placed the statutory or constitutional question beyond debate.” White, 137 S. Ct. at 551
(quoting Mullenix, 136 S. Ct. at 308) (internal quotation marks omitted).
The Moving Defendants argue that Defendants
McCann and Huidor are entitled to qualiﬁed immunity
because “[n]o Ninth Circuit or Supreme Court decision
has held social workers liable for removing children
where a parent in the house was accused of becoming
intoxicated and sexually abusing a child in the home,
and where it would take up to 72 hours to get a warrant.” Mot. at 11. The Ninth Circuit has repeatedly
made clear, however, that there is no exigency where
the alleged abuse is non-recurring and the social
worker fails to investigate and remove the children
within the time required to secure a warrant. In Mabe,
for example, the Ninth Circuit concluded that there
was no exigency where the social worker opted to leave
the residence after interviewing the child about the
alleged molestation, “the improper touching had not
been recurring,” and it was likely that the social
worker could secure a warrant before any further molestation could occur. Id. at 1008. Also militating against
a ﬁnding of exigency is the fact that a risk is too “remote” to establish reasonable cause to believe that the
children were in immediate danger, such as where
children were allegedly locked up in their parents’

App. 97
workplace during the day, but “[t]he chance of accidental injury or of a ﬁre breaking out . . . during the
few hours that it would take [the social worker] to obtain a warrant were very low.” Rogers, 487 F.3d at
1295; see also Malik v. Arapahoe Cnty. Dep’t of Soc.
Servs., 191 F.3d 1306, 1312, 1315 (10th Cir. 1999) (afﬁrming that law was clearly established that no exigency existed where four-year-old child was removed
after eighteen days on basis of ten photographs of the
partially nude girl taken ﬁve months previously by an
artist uncle who resided out of state).
This case is not distinguishable from the Ninth
Circuit’s decisions in Rogers and Mabe or the Tenth
Circuit’s decision in Malik. With only one alleged occurrence of sexual molestation having occurred over
three months previously and with Defendant McCann
having declined to assess an exigent risk between
January 23 and 28, 2013 – longer than it would have
taken to secure a warrant – no reasonable social
worker would have believed that Clarissa or her two
sisters were in imminent danger of serious bodily injury on January 28, 2013, when the Garcia children
were removed from their home without a warrant. Accordingly, on the facts as presented by Plaintiffs, Defendants McCann and Huidor would not be entitled to
qualiﬁed immunity under the law as it was clearly established on January 28, 2013.2
2

The Ninth Circuit has since made clear in Demaree that,
even following White, the Ninth Circuit “ha[s] here a very speciﬁc
line of cases, culminating in Rogers and Mabe, which identiﬁed
and applied law clearly establishing that children may not be

App. 98
B. Medical Treatment Decisions for Cassandra
The Moving Defendants also contend that Defendants McCann and Huidor are entitled to qualiﬁed immunity because no precedent has found a social worker
liable for placing a child in protective custody rather
than in a psychiatric placement, meaning that the constitutional right at issue was not “clearly established.”
See Mot. at 14-15.
The Ninth Circuit has recognized that “[p]arents
and children have a well-elaborated constitutional
right to live together without governmental interference.” Rogers, 487 F.3d at 1294 (quoting Wallis, 202
F.3d at 1136); see also Wallis, 202 F.3d at 1136 (citing
Santosky v. Kramer, 455 U.S. 745, 753 (1982); Stanley
v. Illinois, 405 U.S. 645 (1972); Pierce v. Soc’y of Sisters,
268 U.S. 510, 534-35 (1925); Meyer v. Nebraska, 262
U.S. 390 (1923)). “That right is an essential liberty interest protected by the Fourteenth Amendment’s guarantee that parents and children will not be separated
by the state without due process of law except in an
emergency.” Wallis, 202 F.3d at 1136-37 (citing Stanley,
405 U.S. at 651; Campbell v. Burt, 141 F.3d 927 (9th
Cir. 1998); Ram v. Rubin, 118 F.3d 1306, 1310 (9th Cir.
1997); Caldwell v. LeFaver, 928 F.2d 331, 333 (9th Cir.
1991); Baker v. Racansky, 887 F.2d 183, 186 (9th Cir.
1989)). “The right to family association includes the
removed from their homes without a court order or warrant absent cogent, fact-focused reasonable cause to believe the children
would be imminently subject to physical injury or physical sexual
abuse.” Demaree, 887 F.3d at 884.

App. 99
right of parents to make important medical decisions
for their children, and of children to have those decisions made by their parents rather than the state.”
Wallis, 202 F.3d at 1141 (citing Parham v. JR., 442 U.S.
584, 602 (1979) (holding that it is in the interest of both
parents and children that parents have ultimate authority to make medical decisions for their children unless a “neutral fact ﬁnder” determines, through due
process hearing, that parent is not acting in child’s best
interests)).
As can be seen from the above precedent, it is clear
that a parent’s right to make medical decisions for his
or her child – and the child’s corresponding right to
have his or her parent make such decisions on the
child’s behalf – is part and parcel of the right of parent
and child not to be separated without a warrant in the
absence of exigent circumstances. It naturally follows
that, if a parent is unlawfully deprived of his or her
child, the parent is also deprived of the right to make
medical treatment decisions for his or her child. See,
e.g., Robinson v. Tripler Army Med. Ctr., 683 F. Supp. 2d
1097, 1107 (D. Haw. 2009) (“[Defendant]’s act of taking
legal custody of [the child] away from Plaintiffs had the
effect of terminating Plaintiffs’ ability to make such
[medical] decisions on [the child]’s behalf.”).
The Moving Defendants again urge the Court to
deﬁne the constitutional right at issue too narrowly,
arguing that “[n]o prior precedent has held a social
worker liable for placing a child in protective custody
rather than in an outpatient psychiatric program when
that child was being discharged from a psychiatric

App. 100
hospital.” Mot. at 15. Although cases within the Ninth
Circuit generally arise in the context of investigatory
examinations conducted without the consent or presence of parents in response to allegations of sexual molestation or abuse, see, e.g., Wallis, 202 F.3d at 1141-42,
the fact situation presented here is even more extreme:
after being removed from her parents without reasonable cause, Cassandra was deprived for a period of
many months of the beneﬁt of the medical treatment
her mother (and her physician and herself ) deemed
advisable, i.e., psychiatric outpatient treatment at Project Oz, instead sending Cassandra to PCC. Accordingly,
resolving all factual disputes in favor of Plaintiffs, neither Defendant McCann nor Defendant Huidor is entitled to qualiﬁed immunity.
II.

Defendant Salcido

The Moving Defendants claim that Plaintiffs’ allegations fail to satisfy either prong of the qualiﬁed immunity test as to Defendant Salcido. See Mot. at 16.
First, the Moving Defendants contend that, even viewing the facts in a light most favorable to Plaintiffs,
“none of [Defendant Salcido’s] alleged acts and omissions caused a violation of Cassandra’s right to ‘reasonable safety and minimally adequate care’ ” because
“[n]othing that Salcido was alleged to have done
caused Cassandra to be injured at PCC.” Id. at 17. Second, the Moving Defendants claim that Cassandra’s
constitutional rights, even if violated, were not clearly
established because “no prior precedent has held a
social worker liable for violating a minor’s right to

App. 101
‘reasonable safety and minimally adequate care’ in circumstances even remotely similar to those here.” Id. at
17-18.
Again, the Court disagrees. Viewing the facts here
most favorably to Plaintiffs, the Garcia case was transferred to Defendant Salcido in early February 2013.
See Pls.’ Ex. 32, ECF No. 125-31, at 75:18-23. Defendant Salcido was responsible for the Garcia children until their case was transferred to Teresa Helms on April
30,2013. See Pls.’ Ex. 37C, ECF No. 125-36, at 68. During the approximately three months that Defendant
Salcido was the Garcia family’s caseworker, he allegedly did nothing to attend to Cassandra’s psychiatric
needs, which were exacerbated by her continued return to PCC. See generally Pls.’ MSJ, ECF No. 113-1, at
12-13. Although Sheila requested that Cassandra be
allowed to continue seeing her psychiatrist, Dr. Rashidi, see Pls.’ Ex. 37C at 23, Cassandra allegedly received no mental health services whatsoever between
February 15, and March 22, 2013. See Opp’n at 13.
During this period, Cassandra made several suicide attempts and was psychiatrically hospitalized
three times for suicidal ideations, see Pls.’ Ex 37C at
39; Pls.’ Exs. 43R-43T, ECF Nos. 125-42 at 49-67, reporting “increasing depression” due to removal from
her parents’ custody. See Pls.’ Ex. 43R. Indeed, Cassandra even claimed that many of her suicide threats were
made to “prove a point” to Defendant Salcido. See Pls.’
Ex. 43T at 3. Apparently that “point” was ignored, as
Defendant Salcido did not visit Cassandra and often
could not be reached to discuss her care during this

App. 102
time. See Pls.’ MSJ at 12 (citing Pls.’ Ex. 1, ECF No.
125, at 147:13-24; Pls.’ Ex. 2, 125-1, at 115:19-116:3;
Pls.’ Ex. 32 at 253:2-21, 262:18-23; Pls.’ Ex. 37C at 34;
Pls.’ Ex. 43S at 2). Although Cassandra’s physicians
urged Defendant Salcido that Cassandra be provided
a higher level of care, she was routinely discharged
back to PCC. See Opp’n at 13 (citing Pls.’ Ex. 28, 12527, at 84:1-15; Pls.’ Ex. 32 at 306:2-15; Pls.’ Ex. 37C at
39, 43, 50; Pls.’ Ex. 43U, ECF No. 12542 at 68-69; Pls.’
Ex. 44B, ECF No. 125-43 at 8-13).
After being discharged to PCC on March 22, 2013,
Cassandra ran away (or went “AWOL”) on March 24,
2013. See Pls.’ Ex. 37C at 39, 42; Pls.’ Exs. 40H & 401,
ECF No. 125-40. Following psychiatric readmission to
Rady Children’s Hospital on March 27, 2013, Cassandra informed her physician that “she is ‘not safe . . .
[she] know[s] that [she] will attempt to hurt [her]self
if [she] leave[s] here,’ ” Pls.’ Ex. 44B at 25, and that she
intended to go AWOL if returned to PCC. See Pls.’ MSJ
at 13 (citing Pls.’ Ex. 44C, ECF No. 125-43 at 14-15).
Nonetheless, Cassandra was again discharged to PCC.
Pls.’ Ex. 44D, ECF No. 125-43 at 16-32, at 119. After
only a few hours at PCC, she went AWOL with a couple
of other girls from PCC. Id. The girls ended up in an
apartment with two men, who repeatedly raped and
beat Cassandra. Id.; see also id. at 120-24.
The Ninth Circuit “held in 1992 that [o]nce the
state assumes wardship of a child, the state owes the
child, as part of that person’s protected liberty interest,
reasonable safety and minimally adequate care and
treatment appropriate to the age and circumstances of

App. 103
the child.’ ” Tamas v. Dep’t of Soc. & Health Servs., 630
F.3d 833, 846 (9th Cir. 2010) (quoting Lipscomb ex rel.
DeFehr v. Simmons, 962 F.2d 1374, 1379 (9th Cir. 1992)
(en banc)). “To violate due process, state ofﬁcials must
act with such deliberate indifference to the liberty interest that their actions ‘shock the conscience.’ ” Tamas, 630 F.3d at 844 (quoting Brittain v. Hansen, 451
F.3d 982, 991 (9th Cir. 2006)). “Conduct that ‘shocks the
conscience’ is ‘deliberate indifference to a known or so
obvious as to imply knowledge of, danger.’ ” Tamas, 630
F.3d at 844 (quoting Kennedy v. City of Ridgeﬁeld, 439
F.3d 1055, 1064 (9th Cir. 2006)). “[T]he deliberate indifference standard . . . requires a showing of an objectively substantial risk of harm and a showing that the
ofﬁcials were subjectively aware of facts from which an
inference could be drawn that a substantial risk of serious harm existed and that either the ofﬁcial actually
drew that inference or that a reasonable ofﬁcial would
have been compelled to draw that inference.” Tamas,
630 F.3d at 844 (citing Clouthier v. Cnty. of Contra
Costa, 591 F.3d 1232, 1242 (9th Cir. 2010); Conn v. City
of Reno, 591 F.3d 1081, 1095-96 (9th Cir. 2010); Arledge
v. Franklin Cnty., Ohio, 509 F.3d 258, 263 (6th Cir.
2007); James ex rel. James v. Friend, 458 F.3d 726, 730
(8th Cir. 2006); Hernandez ex rel. Hernandez v. Tex.
Dep’t of Protective & Regulatory Servs., 380 F.3d 872,
881 (5th Cir. 2004)). “[T]he subjective component may
be inferred ‘from the fact that the risk of harm is obvious.’ ” Tamas, 630 F.3d at 844 (citing Arledge, 509 F.3d
at 263; Hernandez, 380 F.3d at 881). The Ninth Circuit has cautioned that “the duty of guarding . . .
safety [of wards of the state] . . . is the quintessential

App. 104
responsibility of the social workers assigned to safeguard the well-being of this helpless and vulnerable
population,” and those social workers “cannot escape
liability by shifting the onus onto the wards to request
removal” from an inadequate environment. Id. at 843.
In Henry A. v. Willden, 678 F.3d 991 (9th Cir. 2012),
for example, the Ninth Circuit reversed the district
court’s dismissal of claims against individual defendants on grounds of qualiﬁed immunity, ﬁnding that the
plaintiffs had alleged violations of their clearly established constitutional rights. Id. at 1001. In Henry A.,
the plaintiffs claimed that the defendant caseworkers
“fail[ed] to provide foster children with necessary medical care.” Id. at 996-97. For example, “Henry A. was
forced to change treatment providers more than ten
times, but his medical records were not transferred
properly,” resulting in Henry being “given a dangerous
combination of psychotropic medications and [being]
hospitalized in an intensive care unit for two weeks,
on the brink of organ failure.” Id. at 997. Similarly,
“[w]hen Jonathan D. became seriously ill with an impacted colon, the County failed to approve a colonoscopy or other treatment measures, despite repeated
requests from Jonathan’s doctor and his foster parent,”
forcing his physician to wait until his “condition became life-threatening, justifying emergency surgery
without the County’s permission,” by which point “Jonathan had been in severe pain for months.” Id.
The Ninth Circuit concluded that “the district
court’s qualified immunity analysis was too narrow,” because it “looked at Plaintiffs’ detailed factual

App. 105
allegations and essentially determined that Defendants were entitled to qualiﬁed immunity because the
‘very action[s] in question’ had not ‘previously been
held unlawful.’ ” Id. at 1000. Instead, the Ninth Circuit
held, “the district court should have (1) determined the
contours of a foster child’s clearly established rights at
the time of the challenged conduct under the ‘special
relationship’ doctrine of substantive due process, and
(2) examined whether a reasonable ofﬁcial would have
understood that the speciﬁc conduct alleged by Plaintiffs violated those rights.” Id. (citing al-Kidd, 563 U.S.
at 741). The Ninth Circuit reasoned that “[i]t is clearly
established that ‘when the State takes a person into its
custody and holds him there against his will, the Constitution imposes upon it a corresponding duty to assume some responsibility for his safety and general
well-being,” and that failure “to provide for his basic
human needs,” including “medical care[ ] and reasonable safety[,] . . . transgresses the substantive limits on
state action set by . . . the Due Process clause.” Henry
A., 678 F.3d at 1000 (citing DeShaney v. Winnebago
Cnty. Dep’t of Social Servs., 489 U.S. 189, 199-200
(1989)). Because these rights “are analogous to those of
prisoners, . . . [courts] can also look to [the Ninth Circuit’s] prisoner cases to further deﬁne what constitutes
a ‘serious medical need.’ ” Henry A., 678 F.3d at 1001
(citing Tamas, 630 F.3d at 844-45). Under that line of
cases, “ignoring the instructions of a treating physician
. . . can amount to deliberate indifference to serious
medical needs.” Id. (citing Wakeﬁeld v. Thompson, 177
F.3d 1160, 1164-65 (9th Cir. 1999)).

App. 106
Applying those legal principles to the facts alleged
in Henry A., the Ninth Circuit “conclude[d] that a reasonable ofﬁcial would have understood that at least
some of the speciﬁc conduct alleged by Plaintiffs violated those rights.” Id. For example, “[a] reasonable ofﬁcial would have understood that failing to authorize
Jonathan’s medical treatment despite knowledge of his
serious illness and repeated requests from his treating
physician amounted to deliberate indifference to a serious medical need.” Id. The Ninth Circuit therefore reversed the district court’s dismissal of the plaintiffs’
claims for violation of their right to be free from harm
while involuntarily in government custody and their
right to medical care, treatment, and services. Id.; see
also id. at 998.
Henry A. in instructive as to both prongs of the
qualiﬁed immunity analysis as to Defendant Salcido.
Here, resolving all factual disputes in favor of Plaintiffs, Plaintiffs have demonstrated that Defendant Salcido – who, as Cassandra’s caseworker, was charged
with providing her with basic medical care and reasonable safety – violated Cassandra’s constitutional rights.
As in Henry A., the instructions of the child’s treating
physicians went unheeded, and the child failed to receive basic and necessary medical care. The Moving
Defendants’ argument that “[n]othing that Salcido
was alleged to have done caused Cassandra to be
injured at PCC,” see Mot. at 17, is disingenuous: according to Plaintiffs, Defendant Salcido’s failure to provide Cassandra with basic and necessary psychiatric
treatment resulted in several suicide attempts and

App. 107
hospitalizations, and even Cassandra’s rape when she
was discharged to – and once again escaped from – a
facility ill-equipped to handle her fragile, and inadequately treated, mental state. With each additional suicide attempt, psychiatric hospitalization, and escape
from PCC, the risk of harm faced by Cassandra in light
of her inadequately treated psychiatric conditions became – or should have become – increasingly obvious
to Defendant Salcido. Not only would a reasonable ofﬁcer have recognized the objectively signiﬁcant risk of
harm facing Cassandra, but it is inconceivable, based
on the facts as presented by Plaintiffs, that Defendant
Salcido did not become subjectively aware of that risk.
Consequently, Plaintiffs’ allegations and their supporting evidence are sufﬁcient to establish that Defendant
Salcido violated Cassandra’s constitutional rights. See
Henry A., 678 F.3d at 998-1001.
Further, as Tamas and Henry A. make clear, these
rights were clearly established in February through
April 2013, when the alleged constitutional violations
took place. See also Conn v. City of Reno, 591 F.3d 1081,
1102 (9th Cir. 2010), cert. granted, judgment vacated,
563 U.S. 915, opinion reinstated, 658 F.3d 897 (9th Cir.
2011) (ﬁnding qualiﬁed immunity was not warranted
where pretrial detainee threatened suicide en route to
prison). Accordingly, even if the Court were to reconsider its prior Order, resolving all factual disputes in
favor of Plaintiffs, the Court would determine that Defendant Salcido is not entitled to qualiﬁed immunity.
See, e.g., A.P. v. Cnty. of Sacramento, No. 2:13-CV01588-JAM-DB, 2017 WL 1476895, at *5 (E.D. Cal.

App. 108
Apr. 25, 2017) (denying summary judgment as to ofﬁcials who knew about the child’s serious autism but
prohibited his foster parents from using the “sensory
diet” prescribed by the child’s occupational therapist
and pediatrician because one aspect of the diet violated
California law).
CONCLUSION
In light of the foregoing, the Court DENIES the
Moving Defendants’ Motion for Reconsideration (ECF
No. 172).
IT IS SO ORDERED.
Dated: December 5, 2018 /s/ Janis L. Sammartino
Janis L. Sammartino
United States District Judge

App. 109
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
SHEILA GARCIA;
CASSANDRA GARCIA;
C.N.G., a minor, by and
through their Guardian
Ad Litem, Donald Walker;
C.J.G., a minor, by and
through their Guardian
Ad Litem, Donald Walker,
Plaintiffs-Appellees,
v.
CAITLIN MCCANN;
GLORIA ESCAMILLAHUIDOR; JESUS SALCIDO,
Defendants-Appellants,
and
COUNTY OF SAN DIEGO;
SAN DIEGO HEALTH
AND HUMAN SERVICES
AGENCY; POLINKSY
CHILDREN’S CENTER;
SRISUDA WALSH;
MARTHA PALAFOX;
LAURA QUINTANILLA;
DOES, 1 through 10 Inclusive,
Defendants.

No.: 19-55022
D.C. No.
3:15-cv-00189-JLS-NLS
Southern District of
California, San Diego
ORDER
(Filed Feb. 12, 2021)

App. 110
Before: SCHROEDER and COLLINS, Circuit Judges,
and BAYLSON,* District Judge.
The panel has voted to deny Plaintiffs-Appellees’
petition for panel rehearing. Judge Collins has voted
to deny Plaintiffs-Appellees’ petition for rehearing en
banc, Judge Schroeder has so recommended, and Judge
Baylson has made no recommendation.
The full court has been advised of the petition for
rehearing en banc and no judge has requested a vote
on whether to rehear the matter en banc. Fed. R. App.
P. 35.
The Plaintiffs-Appellees’ petition for panel rehearing and rehearing en banc is DENIED.
Judge Collins votes to grant Defendants-Appellants’ petition for panel rehearing. Judges Schroeder
and Baylson vote to deny Defendants-Appellants’ petition for panel rehearing. Judge Collins votes to grant
Defendants-Appellants’ petition for panel rehearing en
banc. Judge Schroeder recommends denying Defendants-Appellants’ petition for panel rehearing en banc,
and Judge Baylson has made no recommendation.
The full court has been advised of the petition for
rehearing en banc and no judge has requested a vote
on whether to rehear the matter en banc. Fed. R. App.
P. 35.

* The Honorable Michael M. Baylson, United States District
Judge for the Eastern District of Pennsylvania, sitting by designation.

App. 111
The Defendants-Appellants’ petition for panel rehearing and rehearing en banc is DENIED.
The Defendants-Appellants’ motion to ﬁle under
seal is GRANTED.

